               A



                     U.S. ENVIRONMENTAL PROTECTION AGENCY

                     OFFICE OF INSPECTOR GENERAL




                      Protecting America’s Waters



                     EPA Region 6 Mismanaged
                     Coastal Wetlands Planning,
                     Protection and Restoration
                     Act Funds
                     Report No. 15-P-0003                   October 9, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                 Patrick Gilbride
                                                     Randy Holthaus
                                                     Alexandra Zapata-Torres
                                                     Lisa Bergman
                                                     Mona Mafi

Abbreviations
ADA                    Antideficiency Act
ARA                    Assistant Regional Administrator
CWPPRA                 Coastal Wetlands Planning, Protection and Restoration Act
DOE                    Department of Energy
EPA                    U.S. Environmental Protection Agency
EPM                    Environmental Programs and Management
FY                     Fiscal Year
GAO                    Government Accountability Office
LDNR                   Louisiana Department of Natural Resources
MIPR                   Military Interdepartmental Purchase Request
MOA                    Memorandum of agreement
OCFO                   Office of the Chief Financial Officer
OIG                    Office of Inspector General
ORISE                  Oak Ridge Institute for Science and Education
PPL                    Priority Project List
RESTORE Act            Resources and Ecosystems Sustainability, Tourist Opportunities, and
                       Revived Economies of the Gulf Coast States Act of 2012
Task Force             Louisiana Coastal Wetlands Conservation and Restoration Task Force
EPA Directive          EPA Resource Management Directive System
USACE                  U.S. Army Corps of Engineers
U.S.C.                 U.S. Code
WQPD                   Water Quality Protection Division


Cover photos:     At the left is a Louisiana barrier island (source: http://www.habitat.noaa.gov).
                  On the right is a dune restoration of Whiskey Island Back Barrier (EPA photo).


 Are you aware of fraud, waste or abuse in an           EPA Office of Inspector General
 EPA program?                                           1200 Pennsylvania Avenue, NW (2410T)
                                                        Washington, DC 20460
 EPA Inspector General Hotline                          (202) 566-2391
 1200 Pennsylvania Avenue, NW (2431T)                   www.epa.gov/oig
 Washington, DC 20460
 (888) 546-8740
 (202) 566-2599 (fax)
 OIG_Hotline@epa.gov                                    Subscribe to our Email Updates
                                                        Follow us on Twitter @EPAoig
 More information at www.epa.gov/oig/hotline.html.      Send us your Project Suggestions
                         U.S. Environmental Protection Agency                                                 15-P-0003
                                                                                                         October 9, 2014
                         Office of Inspector General


                         At a Glance
Why We Did This Review                EPA Region 6 Mismanaged Coastal Wetlands
                                      Planning, Protection and Restoration Act Funds
In January 2013, the
U.S. Environmental Protection          What We Found
Agency (EPA), Office of
Inspector General (OIG),              From 2010 to 2013, Region 6 WQPD used                    The EPA’s Region 6
received a hotline complaint          CWPPRA funds for purposes that were not                  WQPD mismanaged
about the EPA’s Region 6              consistent with CWPPRA authority, appropriations         CWPPRA funds, resulting
Water Quality Protection              law and principles, and interagency agreements.          in $780,793 of questioned
Division (WQPD). The                  Further, WQPD management did not accurately              costs and violations of
complainant alleged that the          record labor and contractor costs to the CWPPRA          appropriations law.
WQPD mismanaged Coastal               program. This occurred because Region 6 WQPD
Wetlands Planning, Protection         did not have controls in place to ensure accountability and proper stewardship of
and Restoration Act                   CWPPRA resources. Federal laws and EPA policies require federal employees
(CWPPRA) funds and EPA                to ensure resources are used efficiently and effectively and that public funds are
travel funds.                         used for the purpose for which they were appropriated and authorized. The
                                      WQPD spent CWPPRA funds totaling $780,793 on questioned costs, augmented
The purpose of this audit was         the EPA’s annual appropriations, and overstated CWPPRA program costs.
to determine whether the              This mismanagement of CWPPRA funds resulted in “purpose violations” of
WQPD used:                            appropriations law, pursuant to 31 U.S. Code §1301(a), and put Region 6 at risk
                                      of committing Antideficiency Act violations. The effectiveness of the CWPPRA
 CWPPRA funds in                     program in restoring and protecting coastal wetlands is impaired if WQPD
  accordance with applicable          management does not properly spend and account for CWPPRA resources.
  federal laws, regulations
  and other agreements.                Recommendations and Planned Agency Corrective Actions
 Agency funds efficiently.
                                      We recommend that Region 6 reimburse the U.S. Army Corps of Engineers for
This report addresses the             questioned costs totaling $780,793, unless Region 6 WQPD management
following EPA goals or                provides sufficient and appropriate documentation that demonstrates questioned
cross-agency strategies:              costs paid with CWPPRA funds were incurred in accordance with laws, policies
                                      and interagency agreements. We also recommend that the Region 6 Assistant
                                      Regional Administrator work with the EPA’s Chief Financial Officer to perform an
 Protecting America’s
                                      internal review of the WQPD’s CWPPRA spending for fiscal years 2008 and
  waters.
                                      2009, and for the period July 1, 2013, through September 30, 2014, to identify
 Embracing EPA as a
                                      any additional improper spending that occurred. Further, we recommend that
  high-performing
                                      Region 6 identify and address any Antideficiency Act violations resulting from
  organization.
                                      questioned costs identified in this report or found during the internal review. We
                                      also recommend that Region 6 establish control activities to ensure proper
                                      stewardship and accounting of CWPPRA resources. In addition, we recommend
                                      that Region 6 take administrative disciplinary actions against EPA employees
Send all inquiries to our public      responsible for appropriations law purpose violations. Finally, we recommend
affairs office at (202) 566-2391 or   that WQPD managers and staff receive training on properly managing federal
visit www.epa.gov/oig.                funds to prevent purpose violations.
The full report is at:                Region 6 agreed with three of our recommendations and disagreed with the
www.epa.gov/oig/reports/2015/
                                      other three. This report contains unresolved and open recommendations, and
20141009-15-P-0003.pdf
                                      pending corrective actions.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                   THE INSPECTOR GENERAL




                                            October 9, 2014

MEMORANDUM

SUBJECT:       EPA Region 6 Mismanaged Coastal Wetlands Planning, Protection
               and Restoration Act Funds
               Report No. 15-P-0003

FROM:          Arthur A. Elkins Jr.

TO:            Ron Curry, Regional Administrator
               Region 6

This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. This report represents the opinion of
the OIG and does not necessarily represent the final EPA position. Final determinations on matters in
this report will be made by EPA managers in accordance with established audit-resolution procedures.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this report
within 60 calendar days. You should include planned corrective actions and completion dates for the
unresolved Recommendations 1, 3, 5 and 6. Your response will be posted on the OIG’s public website,
along with our memorandum commenting on your response. Your response should be provided as an
Adobe PDF file that complies with the accessibility requirements of Section 508 of the Rehabilitation
Act of 1973, as amended. The final response should not contain data that you do not want to be released
to the public; if your response contains such data, you should identify the data for redaction or removal
along with corresponding justification.

The Region 6 Assistant Regional Administrator and the Office of the Chief Financial Officer should
provide the OIG with sufficient and appropriate support for the questioned costs. The agency and the
OIG should work together to reach resolution on corrective actions related to the questioned costs.

We will post this report to our website at http://www.epa.gov/oig.
EPA Region 6 Mismanaged Coastal Wetlands                                                                                   15-P-0003
Planning, Protection and Restoration Act Funds


                                   Table of Contents

 Chapters
   1     Introduction ......................................................................................................     1

                 Purpose .....................................................................................................   1
                 Background................................................................................................      1
                 Scope and Methodology ............................................................................              6

   2     Region 6 Did Not Manage CWPPRA Funds in Accordance With
         CWPPRA Legislation and Other Agreements .................................................                               7

                 CWPPRA Legislation Authorized Funds to Restore and
                    Prevent the Loss of Coastal Wetlands in Louisiana ..............................                             7
                 Federal Appropriations Law, Appropriations Principles and
                    EPA Policy Address the Purpose and Use of Funds ............................                                 8
                 EPA Policy Governs the Appropriate Use and Effective
                    Administration of Interagency Agreements ...........................................                         10
                 Region 6 Used CWPPRA Funds for Other EPA Water Programs
                    and General Management Expenses ...................................................                          11
                 Region 6 Lacks Controls to Ensure Accountability and Proper
                    Stewardship of CWPPRA Resources ...................................................                          23
                 Region 6 Overstated CWPPRA Costs and Augmented EPA’s
                    Appropriations ......................................................................................        25
                 EPA Planned Corrective Actions ................................................................                 25
                 Conclusion .................................................................................................    25
                 Recommendations .....................................................................................           26
                 Agency Comments and OIG Evaluation .....................................................                        27

   Status of Recommendations and Potential Monetary Benefits .............................                                       29



 Appendices
   A     Details on Scope and Methodology ................................................................                       30

   B     CWPPRA Excerpts ...........................................................................................             31

   C     EPA’s Portion of Task Force-Approved CWPPRA Planning
         Budgets and Funds by Task for FYs 2010 Through 2013 ..............................                                      34

   D     Agency Response ............................................................................................            36

   E     Distribution .......................................................................................................    45
                                            Chapter 1
                                             Introduction
Purpose
                   In January 2013, the U.S. Environmental Protection Agency (EPA), Office of
                   Inspector General (OIG), received a hotline complaint about the EPA’s Region 6
                   Water Quality Protection Division (WQPD). The complainant alleged that the
                   WQPD mismanaged Coastal Wetlands Planning, Protection and Restoration Act
                   (CWPPRA) funds and EPA travel funds. After preliminary fact-finding on the
                   merits of the complaint, we found that there were indications that the WQPD
                   mismanaged CWPPRA and agency funds, and we decided to conduct additional
                   detailed audit work.

                   The purpose of this audit was to determine whether the WQPD used:

                           CWPPRA funds in accordance with applicable federal laws, regulations
                            and other agreements.
                           Agency funds efficiently.

Background
                   Loss of Louisiana Wetlands

                   Louisiana wetlands are unique and vital ecological assets worth saving.
                   According to the CWPPRA website, billions of dollars in seafood production, oil
                   and gas revenue, and commercial shipping will be lost without Louisiana’s coastal
                   wetlands, which provide the basis and support for these industries. Louisiana has
                   lost up to 40 square miles of marsh per year for several decades. The loss of this
                   marsh accounts for 80 percent of the nation’s annual coastal wetlands loss. This
                   loss is at an average rate of one acre every 38 minutes. If the current rate of loss is
                   not slowed by the year 2040, an additional 800,000 acres of wetlands will
                   disappear, and the Louisiana shoreline will advance inland as much as 33 miles in
                   some areas. See the map in Figure 1 for a depiction of actual land lost since 1932,
                   as well as land predicted to be lost through 2050.1




1
    Data obtained from the Louisiana Coast CWPPRA website at http://lacoast.gov/new/About/Default.aspx.


15-P-0003                                                                                                 1
                    Figure 1: U.S. Geological Survey Map of Coastal Louisiana




                    Source: U.S. Geological Survey National Wetlands Research Center.

                   According to the U.S. Army Corps of Engineers (USACE), as of May 2013,
                   196 coastal restoration or protection projects have been authorized, benefiting
                   over 113,000 acres in Louisiana. As a participating agency, the EPA has planned
                   and managed 23 coastal wetlands projects (completed or active), which have
                   benefited 13,323 net acres in Louisiana.2

                   Legislation

                   Congress enacted CWPPRA to identify, prepare and fund construction of coastal
                   wetlands restoration projects in Louisiana. Congress passed the CWPPRA in
                   1990, and the law is authorized until 2019 (see Appendix B for excerpts of the
                   act). Congress provided dedicated funding for the CWPPRA via the transfer of
                   small engine fuel taxes from the Highway Trust Fund to the Sport Fish
                   Restoration Account. The CWPPRA program provides targeted funds for
                   planning and implementing projects that create, protect, restore and enhance
                   wetlands along the Louisiana coast. Projects are for the long-term conservation of
                   wetlands and to support fish and wildlife populations. Projects funded by
                   CWPPRA are small-scale, cost-effective ways of creating, restoring, protecting
                   and enhancing coastal wetlands. The program uses a wide variety of coastal
                   restoration and protection methods. These methods include marsh creation and

2
    Data obtained from the CWPPRA website at www.lacoast.gov (as of September 2013).


15-P-0003                                                                                            2
                   nourishment, freshwater reintroduction, sediment diversion, foreshore protection,
                   barrier island restoration, terracing, containment dikes, water flow management
                   and invasive species removal.

                   The CWPPRA Task Force

                   The CWPPRA established the Louisiana Coastal Wetlands Conservation and
                   Restoration Task Force (Task Force) to manage the CWPPRA program. The
                   USACE chairs the Task Force and allocates funding to participating agencies for
                   planning activities and projects. The USACE also tracks the status of funds for all
                   CWPPRA projects. The Task Force is comprised of five federal agencies and one
                   state agency:

                               USACE (represents the U.S. Army)
                               U.S. EPA
                               U.S. Fish and Wildlife Service (U.S. Department of the Interior)
                               National Oceanic and Atmospheric Administration
                                (U.S. Department of Commerce)
                               Natural Resources Conservation Service
                                (U.S. Department of Agriculture)
                               Governor’s Office of Coastal Activities (state of Louisiana)

                   The EPA Administrator delegated responsibilities for Task Force membership to
                   the Region 6 WQPD Director. Each year the Task Force—with the help of its
                   supporting committees and workgroups—prepares, selects
                   and approves a list of projects for funding. The Task
                   Force provides this Priority Project List (PPL) to
                   Congress as required by the CWPPRA. At right is the
                   CWPPRA logo (source: http://dnr.louisiana.gov).

                   CWPPRA Funds

                   Annual CWPPRA funding for all participating agencies
                   combined has ranged from $30 to $80 million. The act
                   makes funds available for two main categories of activity:
                   (1) developing the annual PPL (referred to as planning), and (2) implementing
                   restoration projects from the approved PPL. The Task Force approves an annual
                   planning budget and allocates funds based on the approved budget to participating
                   agencies.3 The annual planning budget must not exceed $5 million and is
                   categorized by planning tasks. Region 6 has received in excess of $500,000
                   annually from 2010 through 2013 to fund its Task Force planning participation.
                   Additionally, from 2010 through 2013, Region 6 managed Task Force-approved
                   projects that ranged from about $48,000 to $23 million in total funding. During
                   fiscal years (FYs) 2010 through 2013, Region 6 WQPD managed 14 active

3
    The Task Force allocates CWPPRA funds that are equal to the amounts shown in the approved budgets.


15-P-0003                                                                                                3
                  CWPPRA projects with a cumulative value of about $82 million, and also
                  managed 4 years of allocated planning funds averaging about $521,400 per year
                  and totaling $2,085,556.

                  The act is specific about the purpose of the CWPPRA funds. Funds are to be used
                  to plan and implement projects approved by the Task Force. The Task Force
                  allocates funds, based on the approved annual planning budgets, for activities
                  directly related to developing the PPL.4 The planning budgets do not include
                  funds for activities indirectly related to the CWPPRA, related to other water
                  programs, or for general operations of member agencies.

                  General EPA operations are paid with Environmental Programs and Management
                  (EPM) funds that come from annual congressional appropriations. The EPA
                  operations include personnel labor, training, travel, communication systems,
                  records management systems, and other general infrastructure or support. EPA
                  managers have the discretion to reprogram or move EPM funds among other
                  water programs. However, CWPPRA funds are specifically for purposes
                  identified in the law and activities approved by the Task Force, regardless of
                  whether there may be indirect ties to other Gulf of Mexico efforts.

                  Responsible Offices

                  The Region 6 WQPD has responsibility for water quality programs that protect
                  and preserve the aquatic ecosystems and water resources of Arkansas, Louisiana,
                  New Mexico, Oklahoma and Texas, as well as tribal lands located within the
                  region. In addition to the CWPPRA program, WQPD also manages these water
                  programs:

                         Drinking water.
                         Underground injection control.
                         National Pollutant Discharge Elimination System permits and the Total
                          Maximum Daily Load program.
                         Surface water quality and water quality standards.
                         Monitoring and assessment.
                         Nonpoint source.
                         Wetlands.
                         Coastal and oceans.
                         Effective grants management.
                         U.S. Mexico Border.
                         Climate change.
                         Water and energy efficiency.
                         Environmental justice.
                         Public outreach.


4
    See Appendix C.


15-P-0003                                                                                           4
            The Ecosystems Protection Branch within WQPD manages regional water quality
            and the wetlands protection programs to meet national goals of preserving and
            protecting surface waters and their uses in inland, coastal and estuarine areas.
            There are four sections within this branch: the Marine and Coastal Section, the
            Wetlands Section, the Watershed Management Section, and the Water Quality
            Monitoring and Assessment Section.

            The Marine and Coastal Section manages and conducts regional activities under
            the CWPPRA, as well as the National Estuary Program, the Gulf of Mexico
            Program, the Coastal Zone Management Act, and the Marine Protection and
            Research and Sanctuaries Act. This section provides regional expertise on a
            variety of coastal and marine issues and initiatives, including international,
            national, regional and local estuarine management programs. These issues and
            initiatives include, but are not limited to: evaluating marine impacts from
            liquefied natural gas facilities, and assessing hypoxia in the Gulf of Mexico;
            designating, managing and monitoring ocean disposal sites for dredged sediment;
            and coordinating beneficial use of sediments in coastal restoration efforts.

            The Marine and Coastal section manages the technical aspects of the CWPPRA
            program, including support of Region 6 membership on the CWPPRA Task
            Force. The section also provides oversight of federal funds provided by the Task
            Force, and designs and implements Task Force-authorized restoration projects.

            Federal Programs for the Gulf of Mexico

            Although current CWPPRA funding levels do not support all of the necessary
            restoration required for a sustainable ecosystem, the CWPPRA continues to
            address immediate restoration needs while establishing a foundation of strong
            science, public participation, and agency cooperation that will continue to serve as
            the cornerstone of future programs. To address the projected land loss of coastal
            Louisiana, large-scale coastal restoration projects that focus on the restoration of
            ecosystems must be constructed. Such projects exceed the funding capacity and
            authorization of the CWPPRA program.

            The Louisiana Coastal Area initiative, which began in 2001, received
            authorization in the 2007 Water Resources Development Act to begin to address
            the need to develop and fund large-scale coastal restoration projects. The EPA
            receives funds in the EPM annual appropriations, and from other laws, for work
            related to water programs other than the CWPPRA. Funding is received from
            other coastal restoration initiatives such as the National Estuary Program, the Gulf
            of Mexico Program, the Wetlands Protection Program, and other Gulf-related
            activities. Other laws that are a source of funds include the Clean Water Act and
            the Resources and Ecosystems Sustainability, Tourist Opportunities, and Revived




15-P-0003                                                                                      5
                 Economies of the Gulf Coast States Act of 2012 (RESTORE Act).5 Many of these
                 programs and activities have similar goals and include the same participating
                 federal, state or local agencies and personnel; and address the same geographic
                 locations and impacted populations.

Scope and Methodology
                 We conducted our audit from March 2013 through July 2014 in accordance with
                 generally accepted government auditing standards. Those standards require that
                 we obtain sufficient, appropriate evidence to provide a reasonable basis for our
                 findings and conclusions based on our objectives. We believe that the evidence
                 obtained provides a reasonable basis for our findings and conclusions based on
                 our objectives.

                 The time period covered by our audit was October 1, 2009, through June 30,
                 2013. We reviewed spending during this time period, including expenditures paid
                 with CWPPRA planning funds, CWPPRA project funds and EPM funds. Our
                 primary focus was on the use of CWPPRA planning funds, since that was the
                 focus of the hotline complaint. We also focused on questionable transactions that
                 our audit work revealed.

                 During our audit, we reviewed the CWPPRA legislation, federal appropriations
                 laws, Task Force documents, EPA interagency agreements with the USACE and
                 the Department of Energy (DOE), related EPA financial policies and procedures,
                 and financial data in the EPA’s financial system called Compass Financials. We
                 interviewed WQPD managers and staff, as well as USACE officials from the New
                 Orleans District office. We assessed WQPD controls over travel and CWPPRA
                 spending and funds monitoring. We performed spending analyses on the WQPD’s
                 financial expenditures and data. We reviewed and compared budget data from the
                 Task Force, WQPD’s interagency agreements for CWPPRA and WQPD’s EPM
                 budgets.

                 Appendix A provides further details on our scope and methodology.




5
  The RESTORE Act became law on July 6, 2012. The law creates an essential framework for managing and
financing the Gulf Coast’s recovery, and establishes a trust account for Gulf Coast restoration that will receive
80 percent of the funds from Clean Water Act penalties associated with the Deepwater Horizon Oil Spill. According
to Region 6, to date neither the region nor the EPA has received any funds from the RESTORE Act.


15-P-0003                                                                                                       6
                                   Chapter 2
            Region 6 Did Not Manage CWPPRA Funds
                 in Accordance With CWPPRA
               Legislation and Other Agreements
             Region 6 WQPD used CWPPRA funds for purposes that were not consistent with
             CWPPRA authority, appropriations law and principles, and interagency
             agreements. Further, WQPD management did not accurately record labor and
             contractor costs to the CWPPRA program. This occurred because Region 6
             WQPD did not have controls in place to ensure accountability and proper
             stewardship of CWPPRA resources. Federal laws and EPA policies require
             federal employees to ensure resources are used efficiently and effectively and that
             public funds are used for the purpose for which they were appropriated and
             authorized. The WQPD spent CWPPRA funds totaling $780,793 on questioned
             costs, augmented the EPA’s annual appropriations, and overstated CWPPRA
             program costs. This mismanagement of CWPPRA funds resulted in “purpose
             violations” of appropriations law, pursuant to 31 U.S.C. §1301(a), and put
             Region 6 at risk of committing Antideficiency Act (ADA) violations.

CWPPRA Legislation Authorized Funds to Restore and Prevent the
Loss of Coastal Wetlands in Louisiana
             The CWPPRA established the Task Force to develop a comprehensive approach
             to create, restore, enhance or prevent the loss of coastal Louisiana wetlands.
             The EPA receives funds in accordance with CWPPRA Section 303(a), which
             requires the Task Force to identify and prepare a priority list of coastal wetlands
             restoration projects in Louisiana. According to CWPPRA Section 303(a), those
             projects must:

                    provide for the long-term conservation of such wetlands and
                    dependent fish and wildlife populations in order of priority, based
                    on the cost-effectiveness of such projects in creating, restoring,
                    protecting, or enhancing coastal wetlands, taking into account the
                    quality of such coastal wetlands….

             The CWPPRA also requires the USACE to allocate funds among Task Force
             members based on the need for such funds and other factors that the Task Force
             deems appropriate to carry out the purpose of the act.




15-P-0003                                                                                          7
            Section 302 of the CWPPRA states that a coastal wetlands restoration project is:

                   any technically feasible activity to create, restore, protect, or
                   enhance coastal wetlands through sediment and freshwater
                   diversion, water management, or other measures that the Task
                   Force finds will significantly contribute to the long-term
                   restoration or protection of the physical, chemical and biological
                   integrity of coastal wetlands in the State of Louisiana….

            The act specifically states that the primary purpose of a CWPPRA coastal wetlands
            restoration project shall not be to provide navigation, irrigation or flood-control
            benefits.

            In 2000, the EPA signed a memorandum of agreement (MOA) with the USACE
            and the Louisiana Department of Natural Resources (LDNR). The MOA, which is
            still in effect, says the EPA is responsible for implementing a number of coastal
            wetlands restoration projects approved for funding by the Task Force. The MOA
            also states that within all projects sponsored by the EPA, it is the EPA’s and
            LDNR’s joint responsibility to administer short-term activities, such as
            engineering, design and construction; and long-term activities, such as
            monitoring, operation, maintenance, and the repair and rehabilitation of
            authorized project features.

            To carry out long-term responsibilities, the MOA states that the EPA will request
            funding from the USACE and will certify invoices, as approved, for payment. The
            CWPPRA Task Force Project Standard Operating Procedures Manual, dated
            November 9, 2012, states that the EPA is responsible for ensuring that funds are
            spent in accordance with the CWPPRA. During the audit, we learned that the
            Task Force is currently updating the CWPPRA Task Force Project Standard
            Operating Procedures Manual to reinforce and clarify that the CWPPRA funds
            allocated to agencies should be used for the purposes included in CWPPRA
            Task Force-approved budgets.

Federal Appropriations Law, Appropriations Principles and EPA
Policy Address the Purpose and Use of Funds

            According to 31 U.S.C. §1301(a), appropriations “shall be applied only to the
            objects for which the appropriations were made except as otherwise provided by
            law.” The use of funds for purposes other than those for which the funds are
            appropriated constitutes a purpose violation in accordance with 31 U.S.C. §
            1301(a), unless the expenditure for a different purpose is otherwise authorized by
            law. The specificity of the CWPPRA’s purpose means that using CWPPRA funds
            for EPA activities that are provided for with annual appropriations constitutes a
            purpose violation. A purpose violation does not necessarily constitute an ADA




15-P-0003                                                                                      8
                 violation, and each purpose violation must be scrutinized on a case-by-case basis.6
                 Costs that are not identified in a specific law such as the CWPPRA, but are
                 necessary to implement agency programs, are to be incurred based on the
                 “Necessary Expense Rule.” For expenditures to be justified as necessary, three
                 tests must be met:

                         1. The expenditure must bear a logical relationship to the appropriation
                            sought to be charged. In other words, the expenditure must make a
                            direct contribution to carrying out either a specific appropriation or an
                            authorized agency function for which more general appropriations are
                            available.

                         2. The expenditure must not be prohibited by law.

                         3. The expenditure must not be otherwise provided for, that is, it must not
                            be an item that falls within the scope of some other appropriation or
                            statutory funding scheme.7

                 Additionally, in instances where more than one appropriation may be construed as
                 available, the EPA is bound by what is referred to as the “pick and stick” rule. An
                 agency may make an initial election as to which appropriation to use (the “pick”),
                 but once the decision has been made the agency must “stick” to its choice. The
                 agency cannot, because of insufficient funds or other reasons, change its election
                 in a subsequent fiscal year and use another appropriation unless Congress is first
                 informed of the agency’s planned change.8

                 According to 31 U.S.C. §1341(a)(1)(A), an ADA violation occurs when an officer
                 or employee of the U.S. government makes or authorizes an expenditure or
                 obligation exceeding an amount available in an appropriation or fund for the
                 expenditure or obligation.

                 The EPA’s Resource Management Directive System (EPA Directive) 2520,
                 U.S. Administrative Control of Appropriated Funds, dated February 4, 2008,
                 states that violations of appropriations laws are serious matters that can
                 undermine the EPA’s working relationship with Congress. Employees that
                 violate 31 U.S.C. § 1301 may be subject to administrative discipline in
                 accordance with EPA Directive 2520. A purpose violation has the potential to
                 also constitute an ADA violation per 31 U.S.C. § 1341(a). In addition, according
                 to EPA Directive 2520, an ADA violation also occurs if the funds that should



6
  See 63 Comptroller General 422, 424 (1984), Office of Legal Counsel Memorandum Opinion for the General
Counsel of the Environmental Protection Agency, dated April 2007. See generally Principles of Federal
Appropriations Law, at 4-9.
7
  1 GAO, Principles of Federal Appropriations Law, 4-21 through 4-22 (3d ed. 2010).
8
  The EPA’s Administrative Control of Appropriated Funds, Release 3.2, dated February 4, 2008. Also see 1 GAO,
Principles of Federal Appropriations Law, 2-23 through 2-24 (3d ed. 2010).


15-P-0003                                                                                                        9
            have been charged when the event took place are not sufficient or are not
            available to enable the accounting error correction.

            EPA Directive 2520 requires federal employees to ensure that federal programs
            operate, and that federal resources are used efficiently and effectively, to achieve
            desired objectives. The policy states that management has a fundamental
            responsibility to develop and maintain effective internal controls for the proper
            stewardship of federal resources. The policy also requires managers to operate
            programs and use resources consistent with agency missions; in compliance with
            laws and regulations; and with minimal potential for waste, fraud and
            mismanagement.

EPA Policy Governs the Appropriate Use and Effective Administration
of Interagency Agreements
            According to the EPA’s Interagency Agreement Policies, Procedures, and
            Guidance Manual, issued in 2008, an interagency agreement is a written
            agreement between the EPA and another federal agency, state or local
            government, foreign government, foreign entity, or international organization that
            is authorized by statute and has a distinct scope of work with all activities serving
            defined objectives. An interagency agreement is a mechanism that the EPA uses
            to accomplish its mission more effectively and efficiently, or the agreement
            allows another agency or entity to benefit from the EPA’s specialized resources or
            expertise. Interagency agreements between federal agencies are to help both
            agencies accomplish a shared objective and achieve efficiencies and economies
            while doing business together. Interagency agreements are governed by applicable
            statutory authorities, appropriations law principles, and guidance from the
            U.S. Office of Management and Budget and the U.S. Department of the Treasury.

            The EPA’s agreement with the USACE, in relation to the CWPPRA, is a
            “funds-in” or reimbursement agreement. The EPA’s Interagency Agreement
            Policies, Procedures, and Guidance Manual states that if the EPA is reimbursed
            for its expenses in providing goods or services to another federal agency, then the
            EPA is the “performing” agency. The EPA may provide the other agency
            (ordering agency) the goods or services:

                  Through EPA employees, using EPA equipment and supplies.
                  Under an EPA-awarded procurement contract.
                  Through award of a funds-out interagency agreement with a third party.
                  Under a federal interagency agreement using a cooperation authority, by
                   funding a grant or cooperative agreement.

            The ordering agency remains accountable for these activities to Congress, state
            legislatures, or other governing bodies. Therefore, the EPA must be able to
            provide information to the other agency regarding the use of funds.



15-P-0003                                                                                      10
            The EPA’s total costs for performing a project under an interagency agreement
            include direct and indirect costs. The EPA’s direct costs are directly attributable
            to the interagency agreement’s scope of work. The EPA’s indirect costs are not
            directly attributable to the EPA’s effort on funds-in interagency agreements and
            must be charged to the other agency as provided in the EPA Directive 2540-
            13.P1, Chapter 13, Agency Indirect Cost Allocation System. Indirect costs include
            management and administrative support costs, headquarters allocation of
            facilities and personnel compensation support costs to regions and program
            offices, regional management and support costs, and program office support
            costs. The EPA’s Office of the Chief Financial Officer (OCFO) calculates and
            disseminates indirect cost rates to charge to the work performed under
            interagency agreements, and these indirect cost rates must be included in the
            interagency agreements documentation to be able to recover such indirect costs.

            Grants specialists and EPA project officers are responsible for the proper award
            and administration of interagency agreements, and must ensure that interagency
            agreements are not used to:

                   Circumvent federal travel or personnel ceilings.
                   Circumvent federal appropriations laws and principles.
                   Support activities that are inconsistent with the purpose for which the
                    funds were appropriated, unless such alternate use is specifically provided
                    by statute.

Region 6 Used CWPPRA Funds for Other EPA Water Programs and
General Management Expenses
            Region 6 WQPD spent CWPPRA funds totaling $780,793 for purposes that were
            not in accordance with CWPPRA authority, appropriations law and principles,
            and interagency agreements for CWPPRA work. The WQPD used CWPPRA
            funds for other water programs that have goals and objectives related to the Gulf
            of Mexico.

            The WQPD management authorized the use of CWPPRA funds for contractors,
            travel, payroll and training; and for expenses related to other EPA water
            programs, such as the National Estuary Program, the Gulf of Mexico Program, the
            Wetlands Protection Program and other regulatory activities. In addition, the
            WQPD management used CWPPRA funds for EPA management needs and for
            indirect costs such as administrative and support expenses, equipment, staffing
            and supervisory training.

            Region 6 was not authorized to charge indirect costs to the CWPPRA because
            indirect cost rates were not included in interagency agreement documents.
            Region 6 decision memorandums for FYs 2010 through 2013, which were used to
            justify the use of CWPPRA planning funds, did not include language indicating
            indirect costs were allowable. In fact, for FY 2012, Region 6 stated in its decision


15-P-0003                                                                                    11
                 memo: “Indirect costs do not apply for CWPPRA agreements.” Further, the
                 Office of General Counsel advised Region 6 that it may be appropriate to charge
                 indirect costs but only to project-related activities.

                 The Task Force allocated CWPPRA funds to Region 6 to plan coastal wetlands
                 restoration projects that the Task Force had approved for funding. Region 6
                 received CWPPRA funds to perform authorized planning tasks, such as attending
                 CWPPRA task force meetings, conducting wetland value assessments, conducting
                 CWPPRA program outreach activities, and planning tasks for authorized
                 CWPPRA priority project lists.9 However, the CWPPRA planning funds that the
                 Task Force approved and allocated to Region 6 did not provide funds for
                 equipment purchases or training expenses. A summary of the questioned costs
                 associated with CWPPRA funds from FY 2010 through June 30, 2013, appear in
                 Table 1.

                 Table 1: Overall summary of CWPPRA questioned costs
                                         Spending purpose                                      Amount
                  Intern and an administrative support contractor                              $440,762
                  Equipment and infrastructure                                                  145,398
                  Travel                                                                         87,109
                  Training                                                                       40,039
                  Labor costs and monetary awards                                                36,778
                  Outreach overspending (2010 through 2012)                                      30,707
                                                                                               $780,793
                 Source: OIG analysis.

                 Region 6 Used CWPPRA Planning Funds to Pay an Intern and an
                 Administrative Support Contractor

                 Region 6 spent CWPPRA funds totaling $440,762 to pay for the costs of an intern
                 and an administrative support contractor. The costs for the intern were $390,762
                 and the costs for the administrative support contractor were $50,000.

                 Region 6 entered into an interagency agreement in February 2008 with the DOE’s
                 Oak Ridge Institute for Science and Education (ORISE) to obtain specialized
                 skills for research, project planning and management; and specialized skills for
                 EPA programs. The WQPD obligated and spent a total of $390,76210 of
                 CWPPRA planning funds to fund the interagency agreement with ORISE. The
                 WQPD’s management paid the intern’s stipend and related costs fully with
                 CWPPRA funds. However, the intern also said he worked on other water
                 programs besides the CWPPRA.



9
  See Appendix C.
10
   This amount represents the total amount of CWPPRA funds for the interagency agreement with the ORISE since
February 2008. Although the scope of our audit was from FY 2010 through June 30, 2013, during the audit we
identified improper spending related to the ORISE intern back to February 2008.


15-P-0003                                                                                                   12
            The WQPD should have distributed the intern’s costs consistently with the work
            performed among the programs and projects. As of March 2014, the WQPD has
            acknowledged that a portion of these costs should have been charged to other
            water programs (e.g., ocean dumping). The WQPD’s management and the
            Region 6 Comptroller, under the Assistant Regional Administrator (ARA), are
            coordinating with the EPA’s OCFO to identify EPM funds that can be used to pay
            back the USACE for the charges.

            During FYs 2012 and 2013, the WQPD used CWPPRA funds totaling $50,000 to
            fund a cooperative agreement with the National Older Worker Career Center to
            hire a Senior Environmental Employee. This person’s duties were to provide
            administrative support to the WQPD Marine and Coastal Section. The Task
            Force-approved annual funds allocated to the EPA for planning did not provide
            funds for indirect costs such as administrative staff expenses. Therefore, to fund
            this position with CWPPRA funds was not appropriate.

            Equipment and General EPA Infrastructure Purchases

            The Region 6 WQPD used CWPPRA planning funds totaling $145,398 to
            purchase computer equipment, fund information technology services, and buy
            computer systems. According to the WQPD Marine and Coastal Section chief,
            Region 6 recorded and labeled the property as EPA property in its records. The
            Task Force did not authorize funds to purchase equipment and information
            technology infrastructure.

            The EPA’s interagency agreements for CWPPRA work did not include an
            allocation of funds to purchase equipment as required by EPA’s Interagency
            Agreement Policies, Procedures, and Guidance Manual. The USACE officials said
            none of the other participating agencies of the Task Force have made a request to
            use CWPPRA planning funds to purchase equipment such as computers or
            computer systems. In addition, as previously stated, indirect costs do not apply to
            CWPPRA work. The costs the WQPD incurred for equipment and infrastructure
            did not make a direct contribution to carrying out the CWPPRA’s purpose.

            In FYs 2010 and 2011, the WQPD spent CWPPRA planning funds totaling
            $120,000 for an interagency agreement with the U.S. Department of the Army to
            develop, test and implement Region 6’s Enterprise Content Management System.
            The system is an electronic platform for managing the EPA’s information
            resources, including records. Region 6’s implementation of the system was
            impacted in FY 2009 because of periodic funding shortfalls, priority shifts in the
            EPA’s Office of Environmental Information, and evolving system requirements.
            According to WQPD management, they justified the use of CWPPRA funds as an
            indirect cost because they used CWPPRA documents for a pilot project to develop
            and implement the regional electronic information management system. The
            system is currently being used across the entire region and the EPA. The Task
            Force did not approve the EPA to use CWPPRA funds for this EPA system.



15-P-0003                                                                                    13
            In FY 2011, the WQPD used $20,000 from the CWPPRA planning funds to fund
            Region 6 information technology services, including data processing, email,
            mobile devices, telephone services, and other computer systems. According to
            WQPD managers, the total cost was to fund the information technology service
            fee for five full-time-equivalent positions.

            During 2010 and 2011, the WQPD used $5,398 from CWPPRA planning funds to
            purchase computer equipment and related software. According to WQPD
            management, CWPPRA program managers authorized the purchase of computer
            equipment and infrastructure to facilitate online meetings and webinars with the
            Louisiana Coastal Protection and Restoration Authority. A summary of
            questioned costs associated with CWPPRA planning funds spent to purchase
            equipment and information technology infrastructure appears in Table 2.

            Table 2: Questioned costs on equipment and infrastructure
                                             Description                              Amount
             Region 6 Enterprise Content Management System—
             filing system for electronic records.                                   $120,000
             Region 6 information technology agreement
             for data processing services.                                             20,000
             Computer equipment and related software.                                   5,398
                                                                         Totals      $145,398
            Source: OIG analysis.

            Travel

            The Region 6 WQPD spent CWPPRA funds totaling $87,109 for travel purposes
            that were not in accordance with CWPPRA authority, appropriations law and
            principles, and interagency agreements for CWPPRA work. The WQPD funded
            travel with CWPPRA funds to perform work related to other EPA water
            programs. Also, the WQPD spent CWPPRA funds to pay for travel to attend
            training and perform work related to general EPA administration. Further, the
            WQPD spent CWPPRA project funds and EPA funds to pay for travel to attend
            the Task Force meetings, which are to be funded with CWPPRA planning funds.

                Travel to Perform Work Related to Other EPA Water Programs

                The Region 6 WQPD spent CWPPRA funds totaling $52,942 for travel to
                perform work related to other EPA water programs, or to perform other
                coastal restoration initiatives in the Gulf of Mexico that are authorized under
                other laws. Some of the other EPA water programs or coastal restoration
                initiatives have similar objectives as the CWPPRA program or may indirectly
                contribute to CWPPRA’s purpose, goals and objectives. However, the
                CWPPRA does not authorize the use of funds for such purposes. As stated in
                the CWPPRA legislation, the USACE shall allocate funds among task force
                members in accordance with the priorities set forth in the CWPPRA’s priority




15-P-0003                                                                                    14
                     projects list of Louisiana coastal wetlands projects. Likewise, it is the EPA’s
                     responsibility to use the funds for the act’s intended purpose.11

                     For example, the WQPD Director traveled to Austin, Texas, to give a
                     presentation at a Deep Water Horizon Oil Spill workshop. The Director
                     acknowledged during our audit that he should not have used CWPPRA funds
                     to pay for that trip. In some instances, WQPD managers said that some trips
                     served multiple purposes and explained that because a trip was planned for
                     CWPPRA purposes the travel was conducted at no extra expense to the
                     CWPPRA program. However, the cost of the travel should have been
                     distributed among the program’s funds instead of paying the full cost of the
                     travel with CWPPRA funds.

                     The EPA’s appropriations provide funds to perform work related to other EPA
                     water programs and to other coastal restoration initiatives such as the National
                     Estuary Program, the Gulf of Mexico Program, the Wetlands Protection
                     Program and other regulatory activities. Further, other laws—such as the
                     Clean Water Act, the RESTORE Act or the Water Resources Development
                     Act—grant authority and provide funds for other programs and restoration
                     initiatives along the gulf coast.12 In contrast, during our discussions with
                     USACE officials, they said the USACE would not authorize the use of
                     CWPPRA funds to pay for other programs’ activities. For example, according
                     to USACE officials, a USACE staff person attended the Barataria-Terrebonne
                     National Estuary Program meetings in the past but, unlike WQPD, did not use
                     CWPPRA funds to attend the meetings. A summary of questioned costs of
                     CWPPRA funds that the WQPD spent on travel to accomplish work on other
                     EPA water programs appears in Table 3.

                   Table 3: Questioned costs for travel for other EPA water programs
                                                                                          Number of
                                             Travel purpose                                               Amount
                                                                                            trips
                   Gulf of Mexico Alliance meetings                                          11            $ 11,675
                   Gulf Coast Ecosystem Restoration Task Force meetings                      13              10,161
                   Barataria-Terrebonne National Estuary Program meetings                    11               9,374
                   Ocean Disposal Material Sites and beneficial uses                         12               8,807
                   Other (Louisiana Comprehensive Plan and Urban Waters
                   Coordination)                                                               11               5,845
                   Regulatory Activities (e.g., the National Environmental Policy Act
                   and the Clean Water Act, Section 402)                                        4               3,265
                   Hypoxia Task Force meetings                                                  3               2,702
                   Deepwater Horizon Oil Spill (e.g., briefings and National Oceanic
                   and Atmospheric Administration scoping meeting)                              2             1,113
                                                                                Totals         67          $ 52,942
                   Source: OIG analysis.



11
 EPA Directive 2520, Administrative Control of Appropriated Funds, dated February 4, 2008.
12
 According to Region 6, to date neither the region nor EPA has received any funds from the RESTORE Act or the
Water Resources Development Act.


15-P-0003                                                                                                  15
              Travel to Attend Training

              The WQPD spent CWPPRA funds totaling $21,551 to pay for travel to attend
              training in FYs 2011 and 2012. These training expenses were to maintain,
              upgrade or update employees’ technical skills to operate EPA programs and to
              obtain or improve employees’ skills to perform general management or staff
              duties required for their positions within EPA. The EPA’s annual
              appropriations provide funds to train staff; however, neither the EPA’s
              CWPPRA interagency agreements nor the Task Force provided funds for
              training.

              For example, one WQPD staff member traveled to the Netherlands to attend a
              Dutch water management training conference. The staff member told us that
              the purpose for attending the Dutch water management training was to help
              him find more efficient and effective ways to implement coastal restoration
              projects and flood protection. While the employee obtained knowledge and
              skills useful to multiple EPA water programs regarding coastal restoration and
              flood protection, the training did not relate directly to CWPPRA planning or
              project implementation. In addition, the staff member was not an EPA
              representative on any of the Task Force committees, and he was not a
              CWPPRA project manager for the EPA.

              Region 6 management provided the OIG with a copy of the employee’s
              performance standards, which included metrics related to work in the
              CWPPRA program. However, the employee reported only 23 labor hours
              charged to the CWPPRA program during the period we audited (FY 2010
              through June 30, 2013). Also, the employee did not report labor hours to the
              CWPPRA program while attending the Dutch water management conference.

              A summary of the questioned costs of CWPPRA funds that the WQPD spent
              on travel to attend training appears in Table 4.

            Table 4: Questioned costs for travel to attend training

                            Training type                 Number of trips      Amount
             Clean Water Act, Section 404                         5            $6,508
             National Environmental Policy Act                    5              4,382
             Engineering dredging courses                         5              4,571
             Supervisory training                                 3              3,873
             Dutch water management training                      1              2,057
             Diversion workshop                                   1                160
                                                 Totals          20            $21,551
            Source: OIG analysis.




15-P-0003                                                                                 16
              Travel for General EPA Management Activities

              Region 6 WQPD used CWPPRA planning funds to travel and perform general
              EPA managerial activities. Specifically, the WQPD spent CWPPRA funds
              totaling $7,524 on activities to manage EPA programs and staff, including
              staff recruiting, briefings to headquarters officials, and other general staff
              management and administrative activities.

              In FY 2010, two WQPD managers used CWPPRA funds to travel to
              Louisiana to recruit an intern from the DOE’s ORISE program. Also in
              FY 2010, the WQPD’s Director used CWPPRA funds to travel to
              Washington, D.C., to meet with OCFO and the Office of Water. WQPD’s
              Director briefed OCFO and OW about Region 6 water programs, including
              the CWPPRA program, and the allocation of resources to WQPD. In
              FY 2011, two WQPD managers traveled to Louisiana to brief the EPA
              Administrator and other officials on EPA water programs as well as the EPA’s
              role in coastal restoration in the Gulf of Mexico.

              While WQPD managers presented information about the CWPPRA program,
              the purpose of the trip was not specifically related to the CWPPRA program,
              but instead about the EPA’s overall work in the Gulf of Mexico and coastal
              restoration. Hence, the costs should have been distributed among the
              applicable programs. If WQPD management was unable to trace the costs to
              specific programs or projects, then, by definition, the costs should have been
              considered to be general WQPD administrative costs or indirect costs and
              EPM funds should have been used. See Table 5 for a summary.

            Table 5: Questioned costs for travel for EPA’s general administration
                                                                           Number of
                                    Travel purpose                                     Amount
                                                                             trips
            General administrative purposes, including staff
            management and supervisory activities.                             5       $3,125
            Briefings to the EPA Administrator about Louisiana coastal
            restoration efforts, including the EPA’s water programs and
            projects in Louisiana.                                             2        2,316
            Recruiting trip to Louisiana.                                      2        1,596
            Meeting with OCFO and OW in Washington, D.C., to
            discuss resource and staffing issues.                              1          487
                                                                  Totals      10       $7,524
            Source: OIG analysis.


              Travel to Attend CWPPRA Task Force Meetings Using CWPPRA
              Project Funds and EPA Funds

              Region 6 WQPD spent CWPPRA project funds and EPA’s EPM funds
              totaling $5,470 for travel to attend Task Force meetings and other planning
              meetings. The CWPPRA planning budget allocated funds for Region 6 to



15-P-0003                                                                                   17
                     attend general Task Force meetings, such as financial status meetings,
                     planning meetings and other related meetings concerned with the management
                     of the CWPPRA program.13 The WQPD should have used CWPPRA planning
                     funds to attend Task Force and CWPPRA planning meetings. The funds
                     allocated for CWPPRA projects provide travel funds for specific project
                     purposes, such as on-site inspections to monitor the status of a project being
                     constructed. A summary of project-specific and EPM funds spent on travel to
                     attend CWPPRA planning and Task Force meetings appears in Table 6.

                  Table 6: Questioned costs for travel for Task Force meetings paid with project
                  funds and EPA funds
                                                           CWPPRA project fund                 Number
                              Meeting                                                                       Amount
                                                           or EPA fund charged                 of trips
                   General CWPPRA planning
                   meetings                        Bertrandville Siphon Project, Phase I           3         $1,705
                   Other CWPPRA meetings           Bohemia Mississippi River
                   with the USACE and the          Reintroduction ($964) and
                   Task Force                      EPM funds ($378)                              142          1,342
                   Financial Status of             Enhancement of Barrier Island
                   CWPPRA funds                    Vegetative Demo                                 2          1,291
                   Task Force quarterly            Venice Ponds Marsh Creation and
                   meeting                         Crevasses                                       1              788
                   General CWPPRA planning         Phase II, Construction of the Whiskey
                   meetings                        Island Back Barrier Project                     1            344
                                                                                   Totals          9         $5,470
                   Source: OIG analysis.

                 Region 6 Used CWPPRA Funds to Pay for Unauthorized Training

                 WQPD spent CWPPRA funds totaling $40,039 ($33,289 from planning and
                 $6,750 from project funds) for supervisory training and training related to work
                 for other EPA water programs. The training expenses paid with CWPPRA funds
                 were to maintain, upgrade or update technical skills to operate EPA’s programs or
                 for general management. During FYs 2010 through 2013, the Task Force did not
                 authorize a training allowance to Region 6.15 Therefore, WQPD did not have
                 CWPPRA funds available for training purposes and should have paid for training
                 with EPM funds. For example, WQPD used $18,375 of CWPPRA funds in
                 FY 2010 to send its new Marine and Coastal Section chief to a general
                 supervisory training class presented by the Office of Personnel Management to
                 learn how to be a supervisor. USACE officials told us that they would not be
                 allowed to spend CWPPRA funds to pay for training and related expenses.
                 Table 7 below summarizes the questioned costs of CWPPRA funds that WQPD
                 spent on training.



13
   See Appendix C.
14
   One trip cost $756 and was split-funded between the Bohemia Mississippi River Reintroduction Project and EPM
funds ($378 to each fund source). For the second trip, the cost was $586 fully charged to the CWPPRA project.
15
   See Appendix C.


15-P-0003                                                                                                    18
            Table 7: Questioned costs on training courses
                                                                        Number of
                                    Training Type                                      Amount
                                                                         courses
             Supervisory                                                    4          $24,255
             Dredging engineering courses                                   5             6,750
             National Environmental Policy Act                              4             4,700
             Dutch water management training                                1             2,750
             Other                                                          3            1,584
                                                              Totals        17         $40,039
            Source: OIG analysis.

            Region 6 Did Not Record Labor Costs Consistently and Used
            CWPPRA Funds for Monetary Awards

            The Region 6 WQPD staff and managers did not charge labor time and costs to
            the EPA’s programs and projects consistently in accordance with the work
            performed. We found inconsistencies between when travel costs were charged to
            the CWPPRA program and the staff’s time charges. In several instances, WQPD
            managers and staff traveled using CWPPRA funds to pay for travel expenses;
            however, they did not charge labor time to the CWPPRA program. Based on
            reports we reviewed for personnel and compensation expenses, Marine and
            Coastal section staff and management charged labor time and costs to the
            CWPPRA program without regard to the actual work conducted.

            During FYs 2010 through 2013, a staff person from the WQPD Planning and
            Analysis Branch attended the State of the Coast Conference, the Restore America’s
            Estuaries Conference, the American Shore and Beach Preservation Conference, and
            the Youth Summit Restoration Tree Planting in Louisiana. The WQPD paid the
            travel expenses using CWPPRA planning funds, but time was never charged to the
            CWPPRA program for the activities conducted during these trips.

            The Associate Director of the WQPD’s Ecosystems Protection Branch traveled to
            attend meetings and funded at least 17 of these trips with CWPPRA planning
            funds. However, the Associate Director did not charge time for these trips
            consistently to the fund accounts she charged for her travel expenses. In
            June 2012, for instance, the Associate Director traveled to attend the State of the
            Coast Conference and used CWPPRA planning funds to pay for travel expenses.
            However, the Associate Director charged time while attending the conference to a
            specific CWPPRA project. Likewise, in June 2012 the Associate Director
            attended a Deepwater Horizon Oil Spill meeting and used EPM funds to pay for
            travel expenses. However, the Associate Director charged her time while
            attending the meeting to a CWPPRA project. As a result, in FY 2012 the
            Associate Director charged about $17,469 in questioned labor costs to Phase II of
            the Construction of the Whiskey Island Back Barrier Project and $18,610 in
            questioned labor costs to Phase I of the Bertrandville Siphon Project.




15-P-0003                                                                                    19
                  Monetary Awards

                  The WQPD’s management also authorized the use of CWPPRA planning funds to
                  give monetary awards to two employees. These two employees, whose
                  responsibilities were not within the CWPPRA program, were the only employees
                  who received monetary awards from CWPPRA funds during the period we
                  audited. The EPA personnel with responsibilities in the CWPPRA program, such
                  as CWPPRA project managers, did not receive any monetary awards from
                  CWPPRA funds during the period. Further, when we discussed these events with
                  USACE officials, they stated that the Task Force never approved an allowance for
                  monetary awards.

                  According to WQPD management, in FY 2010 a WQPD staff person assisted the
                  Marine and Coastal section with graphic design support for posters to be used for
                  a CWPPRA dedication ceremony. The WQPD program manager for the
                  CWPPRA granted the employee an On-the-Spot Award of $340 for her
                  assistance. Further, this employee did not charge her time to the CWPPRA
                  program while performing her graphic design support, which is not consistent
                  with labor charging for accountability purposes.

                  In FY 2011, the WQPD managers for the CWPPRA granted a $359 On-the-Spot
                  Award to a headquarters program analyst in Washington, D.C., who helped
                  Region 6 obtain National Environmental Policy Act contractor assistance. The
                  National Environmental Policy Act requires federal agencies to integrate
                  environmental values into their decision-making processes by considering the
                  environmental impacts of proposed actions and reasonable alternatives to those
                  actions. The WQPD’s Marine and Coastal Section coordinates with other regional
                  organizations to grant funds to and comply with National Environmental Policy
                  Act requirements, which is a regulatory activity that is not authorized by the
                  CWPPRA. The program analyst did not charge time to the CWPPRA program
                  while providing support to Region 6.

                  Outreach Activities and Related Costs

                  The Task Force allocated outreach funds totaling $6,60016 to Region 6 to conduct
                  educational events about the CWPPRA program. These events included presenting
                  information at conferences about the CWPPRA program, attending Task Force
                  extracurricular activities, attending quarterly outreach committee meetings, and
                  attending any other meetings that attract media attention to the CWPPRA program.

                  During FYs 2010 through 2012, the WQPD exceeded each year’s allocation for
                  CWPPRA outreach. In addition, in 2011 and 2012, the WQPD used CWPPRA
                  project funds to travel for outreach work. As previously mentioned, CWPPRA
                  project funds are to be used to design and construct specific, approved projects.
                  Therefore, CWPPRA project budgets do not provide an allowance for outreach work.
16
     See Appendix C.


15-P-0003                                                                                        20
            Based on interviews with managers of the EPA’s CWPPRA program, the travel
            trips we identified served a CWPPRA outreach purpose to some extent. However,
            the information provided during conferences, symposiums, meetings or briefings
            was not specifically related to the CWPPRA program. Instead, the information
            provided was about ocean and coastal programs, which include the CWPPRA
            program. Therefore, the WQPD should have distributed the expenses evenly
            among the applicable funds instead of charging the full cost of outreach activities
            to the CWPPRA program.

            In FY 2010, the WQPD exceeded its annual CWPPRA outreach funding by
            $9,345. As summarized in Table 8 below, the WQPD spent $9,859 for travel
            related to outreach work. Additionally, the WQPD spent another $6,086 in
            conference fees and supplies to prepare posters for presentations. A summary of
            the WQPD’s 2010 outreach expenditures, including the calculation showing how
            much Region 6 overspent, is shown in Table 8.

            Table 8: Fiscal year 2010 CWPPRA outreach overspending
                                                                Number
                                    Description                             Amount
                                                                of trips
             Travel
             Workshops, conferences, briefings and
             symposiums                                            10        $6,056
             State of the Coast Conference                          5         3,803
             Total outreach travel spending                        15        $9,859

             Conference fees and supplies
             State of the Coast Conference fees                               5,200
             Supplies for poster preparation                                    886

                             Total CWPPRA outreach spending                 $15,945
                               EPA’s CWPPRA outreach funding                 (6,600)
                              CWPPRA outreach overspending                    $9,345
            Source: OIG analysis.

            In FY 2011, the WQPD exceeded its annual CWPPRA outreach funding by
            $13,808. The spending excess includes $702 that WQPD management funded
            with CWPPRA project funds that were supposed to be spent on Phase II of the
            East Marsh Island project. The WQPD management authorized the travel for one
            staff member to attend the Restore America’s Estuaries Conference, which was
            funded with a combination of CWPPRA planning funds and CWPPRA project
            funds. The Task Force’s allocation for CWPPRA projects do not provide an
            allowance for outreach. In addition, USACE officials stated that some of its staff
            attended the Restore America’s Estuaries Conference, the State of the Coast
            Conference, and the Barataria-Terrebonne National Estuary Meetings but did not
            use CWPPRA funds because the purposes of these types of conferences and
            meetings fall under other legislation. A summary of the WQPD’s outreach
            expenditures for FY 2011, including the overspending calculation of the
            CWPPRA outreach budget, appears in Table 9.


15-P-0003                                                                                    21
            Table 9: Fiscal year 2011 CWPPRA outreach overspending
                                                                        Number of
                                      Description                                   Amount
                                                                          trips
             Restore America’s Estuaries Conference                         9        $7,733
             Wetlands Youth Summit                                          4         2,900
             American Beach and Shore Preservation Association              2         1,714
             Wastewater workshops                                           3         1,707
             Other presentations or briefings                               3         1,311

             Total outreach travel spending                                21       $15,365

             Conference fees and supplies
             Restore America’s Estuaries Conference fees                              4,475
             Supplies for poster preparation                                            568
                                     Total CWPPRA outreach spending                 $20,408
                                     EPA’s CWPPRA outreach allocation                (6,600)
                                      CWPPRA outreach overspending                  $13,808
            Source: OIG analysis.

            In FY 2012, the WQPD exceeded its annual CWPPRA outreach funding by
            $7,554. Similar to FY 2011, the spending excess includes $4,524 that WQPD
            management funded with CWPPRA project funds. The WQPD’s management
            authorized travel funded with CWPPRA project funds to attend the State of the
            Coast Conference, the Restore America’s Conference and other trips related to
            outreach purposes. As we stated before, the budgets allocated to CWPPRA
            projects do not provide an allowance for outreach. A summary of the WQPD’s
            outreach expenditures for FY 2012, including the overspending calculation of
            Region 6’s CWPPRA outreach funds, appears in Table 10.

              Table 10: Fiscal year 2012 CWPPRA outreach overspending
                                                                        Number of
                                      Description                                   Amount
                                                                          trips
              State of the Coast Conference                                 5           $5,303
              Restore America’s Estuaries Conference                        2            2,630
              Wetlands Youth Summit and Super Bowl Event                    4            4,248
              Other briefings, presentation and outreach meetings           1              973

              Total outreach travel spending                               12         $ 13,154

              Conference fees and supplies
              State of the Coast Conference fees                                          1,000
                                    Total CWPPRA outreach spending                    $ 14,154
                                     EPA’s CWPPRA outreach allocation                   (6,600)
                                     CWPPRA outreach overspending                     $ 7,554
              Source: OIG analysis.




15-P-0003                                                                                   22
Region 6 Lacks Controls to Ensure Accountability and Proper
Stewardship of CWPPRA Resources
            Federal employees are required to ensure that funds are used effectively and
            efficiently, and that funds are used for the purposes for which the funds were
            authorized. Therefore, the WQPD management should institute controls to ensure
            the proper stewardship of resources. While specific line-item budgets are not
            provided in the CWPPRA, the act is specific on its authority that the purpose of
            CWPPRA funds is to:

                  Plan and implement coastal wetlands restoration projects approved for
                   funding by the Task Force.
                  Provide for the long-term conservation of wetlands and dependent fish and
                   wildlife populations in order of priority, based on the cost-effectiveness of
                   such projects in creating, restoring, protecting or enhancing coastal
                   wetlands.

            Despite the requirements above, the Region 6 WQPD did not have adequate
            controls in place to provide for proper accounting and management of CWPPRA
            funds. According to the EPA’s CWPPRA project officer, the WQPD’s CWPPRA
            program managers and project officer did not perform comparisons of actual
            spending of CWPPRA planning funds with the authorized planning budget.
            Further, they did not perform reconciliations to verify that WQPD used CWPPRA
            planning funds in accordance with agreements with Task Force-approved budgets.
            Likewise, the managers and the project officer did not perform verifications to
            identify financial errors or misstatements, such as expenses inaccurately charged
            to CWPPRA accounts.

            For example, the WQPD CWPPRA project officer provided us with copies of the
            documents she used to monitor and track CWPPRA funds. However, these
            documents lacked sufficient details to identify misstatements, errors or inaccurate
            charges to CWPPRA fund accounts. The project officer explained that she does
            not monitor and track CWPPRA spending in detail because the USACE does not
            require the WQPD to provide such details during the billing process.

            For instance, WQPD managers stated that the CWPPRA statute does not require
            agencies that are members of the Task Force to implement a line-item budget for
            individual partner agency expenditures, such as specific travel and training.
            Therefore, WQPD managers and the CWPPRA project officer tracked and billed
            CWPPRA spending at the summary level amount by CWPPRA expense accounts,
            without regard to individual expenditures that make up the total amount. In
            addition, the WQPD Director stated that in some instances, at the end of a fiscal
            year, he made travel-funding decisions based on the availability of funds in
            CWPPRA and EPM accounts.




15-P-0003                                                                                    23
                  According to USACE officials, the Task Force votes on and approves annual
                  CWPPRA planning budgets, and the Task Force expects agencies to use the funds
                  to perform authorized planning tasks.17 During discussions with USACE officials,
                  the officials said they were concerned about how the WQPD was spending
                  CWPPRA funds and that the USACE would not be permitted to spend CWPPRA
                  funds as the EPA did.

                  Ineffective Management Communication With the Project Officer

                  Management at the WQPD did not communicate effectively with the WQPD’s
                  CWPPRA project officer. The project officer said WQPD management did not
                  always consult with her concerning the CWPPRA decision-making process for
                  spending. In some instances, after the CWPPRA funds were spent, she learned
                  that management approved spending that she believed was not consistent with the
                  CWPPRA’s purpose. Although EPA policy and procedures require the project
                  officer to ensure funds are spent only for authorized purposes and to request
                  appropriate accounting corrections, the project officer stated that she felt the
                  decision to correct such transactions was not hers to make.

                  Management Misconceptions

                  The WQPD’s management has several misconceptions about CWPPRA authority
                  and funding. Management believes that they have the discretion to decide how to
                  use CWPPRA funds. For example, the WQPD managers believed that it was
                  allowable to use CWPPRA funds to support other coastal restoration initiatives in
                  the Gulf of Mexico, or to support other EPA water programs that had objectives
                  related to coastal restoration in the Gulf of Mexico. The WQPD managers also
                  told us that they had broad authority to spend CWPPRA funds under the Military
                  Interdepartmental Purchase Request (MIPR) provided by the USACE.

                  The MIPR is a financial instrument used to distribute CWPPRA funds to the
                  agency members of the Task Force and to process CWPPRA billings. However,
                  the MIPR does not provide a legal authority to spend CWPPRA funds. The
                  USACE did not require agencies to submit supporting documentation with
                  CWPPRA billings. Consequently, we believe the WQPD management
                  misunderstood the MIPR process as a broad authority to spend CWPPRA funds at
                  their discretion.

                  The WQPD management misconstrued that Region 6 was not required to comply
                  with the EPA’s interagency agreement with USACE. The WQPD’s CWPPRA
                  project officer said the interagency agreement for CWPPRA planning purposes is
                  a mere formality and a placeholder, because Region 6 does not perform any work
                  for the USACE but rather performs work for the Task Force. Further, the project
                  officer stated that CWPPRA planning funds are unique and different from other
                  funds and that CWPPRA program operations change constantly. Therefore, the
17
     See Appendix C.


15-P-0003                                                                                        24
            project officer said the WQPD is unable to follow the CWPPRA planning budgets
            included in the EPA’s interagency agreements with the USACE and that the Task
            Force approves.

Region 6 Overstated CWPPRA Costs and Augmented EPA’s
Appropriations
            During the period audited, the Region 6 WQPD mismanaged CWPPRA funds and
            spent CWPPRA funds totaling $780,793 for purposes that were not consistent
            with CWPPRA authority, appropriations law and principles, and CWPPRA
            interagency agreements. As a result, the WQPD committed purpose violations in
            accordance with 31 U.S.C. §1301(a) and augmented the EPA’s EPM
            appropriation with CWPPRA funds. Because the WQPD spent CWPPRA funds
            on other EPA water programs and other coastal restoration efforts, actual
            CWPPRA program costs were significantly overstated (i.e., costs were actually
            lower than the amounts spent by the WQPD from CWPPRA funds).

            By not accounting for program costs accurately, Region 6 WQPD management
            will not be able to identify the actual cost of managing the CWPPRA program and
            some of its other water programs, which could result in making inaccurate future
            budgeting decisions, wasting resources, and an increased risk of committing ADA
            violations. In addition, the effectiveness of the CWPPRA program in achieving its
            purposes could be impaired if WQPD management does not properly spend and
            account for CWPPRA resources. The CWPPRA funds that are not used should be
            returned to the Task Force to be used by other agencies, as needed, to accomplish
            CWPPRA purposes. The Task Force has procedures in place for agencies to
            return any unused funds. According to the USACE officials, there have been
            instances when agencies have returned unused CWPPRA funds during a fiscal
            year.

EPA Planned Corrective Actions
            During the course of our audit, we informed Region 6 WQPD’s management
            about the mismanagement and improper spending of CWPPRA funds. Region 6
            WQPD’s management stated that they plan to return to the Task Force some of
            the CWPPRA funds spent for other EPA programs. Also, according to the
            WQPD’s Deputy Director, the division has changed its internal processes to avoid
            using CWPPRA funds for other EPA programs such as ocean dredging and
            material disposal sites, and for hypoxia in the Gulf of Mexico. However, we have
            not verified these changes to WQPD’s internal processes.

Conclusion
            There are many coastal restoration initiatives taking place in Louisiana, including
            national estuary programs for ecosystems protection and restoration. These other
            initiatives are authorized by several statutes that address different coastal issues, such


15-P-0003                                                                                       25
            as oil spills, waterways and levees, ecosystems restoration, and hypoxia, among
            others. The EPA receives appropriated funds from Congress to perform work for the
            National Estuary Program, the Gulf of Mexico, the National Environmental Policy
            Act, Superfund, Oil Spill, and the Clean Water Act. According to appropriations law
            and principles, the EPA’s appropriated funds should be used to fund work for other
            water programs, including other coastal restoration programs, because these
            activities are provided for with EPA appropriations.

            The Region 6 WQPD should take immediate corrective actions to ensure the
            proper stewardship of CWPPRA funds in accordance with laws, policies and
            regulations. The use of funds for purposes other than those for which the funds
            were appropriated constitutes a purpose violation in accordance with 31 U.S.C.
            §1301(a). Implementing adequate internal controls for the management of the
            CWPPRA program will reduce the opportunities to misspend CWPPRA
            resources. Likewise, the WQPD management should better support the role of the
            project officer, and the project officer should take a more active role in reviewing
            and questioning costs. By using CWPPRA funds only for the purpose for which
            the funds were authorized, Region 6 would accomplish CWPPRA program
            objectives more effectively, and the region would be able to identify how much
            the program costs them to implement.

            To assess the appropriateness of Region 6’s actual spending of CWPPRA funds,
            Task Force procedures and CWPPRA interagency agreements must be
            considered, and the extent to which the EPA followed or deviated from those
            procedures and agreements. Based on information in this report, it is clear the
            WQPD’s management did not reasonably manage CWPPRA funds consistent
            with the specific approval of the Task Force and its procedures or CWPPRA
            interagency agreements.

Recommendations
            We recommend that the Region 6 Regional Administrator:

               1. Reimburse the Task Force (through the USACE) questioned costs of
                  $780,793, unless Region 6 WQPD management provides sufficient and
                  appropriate documentation to demonstrate that questioned costs paid with
                  CWPPRA funds were incurred in accordance with CWPPRA,
                  appropriations law and principles, and interagency agreements.

               2. Direct the Region 6 ARA to work with the OCFO to perform an internal
                  review of the WQPD’s CWPPRA spending at the end of FY 2014 to
                  identify improper expenditures that occurred in 2008 and 2009, as well as
                  from July 1, 2013, through September 30, 2014. Reimburse the Task
                  Force (through the USACE) any questioned costs identified during this
                  review.




15-P-0003                                                                                     26
               3. Identify and address any ADA violations resulting from questioned costs
                  identified in this report or found by the Region 6 ARA’s review, and
                  report any violations in accordance with the ADA and EPA
                  Directive 2520.

               4. Direct the WQPD to establish control activities for the CWPPRA program
                  (e.g., verifications, comparisons and reconciliations of CWPPRA spending
                  with Task Force-approved CWPPRA budgets) to ensure proper
                  stewardship and accounting of CWPPRA resources.

               5. Take administrative disciplinary actions, in accordance with EPA
                  Directive 2520, against EPA employees responsible for purpose violations
                  or ADA violations related to improper CWPPRA spending.

               6. Provide training to WQPD managers and staff who work on CWPPRA
                  activities about what constitutes a purpose violation, including the
                  potential for ADA violations.

Agency Comments and OIG Evaluation
            Region 6 did not concur with Recommendation 1 and proposed an alternative
            approach. Region 6 proposed that the Region 6 ARA and the OCFO perform a
            review of the $780,793 in questioned costs to determine what amount they deem
            appropriate to reimburse the USACE. Region 6’s proposed corrective action is not
            responsive to our recommendation. The Region 6 ARA and the OCFO should
            provide the OIG with sufficient and appropriate support for the questioned costs.
            The agency and the OIG should work together to reach resolution on corrective
            actions related to the questioned costs.

            Region 6 concurred with Recommendation 2. Region 6 and the OCFO will
            perform an internal review of the WQPD’s CWPPRA spending at the end of
            FY 2014 to identify improper expenditures that occurred in 2008 and 2009, as
            well as July 1, 2013, through September 30, 2014. Region 6 plans to complete this
            recommendation no later than March 2016. For clarity, in this final report, we
            added to this recommendation that Region 6 should also reimburse the Task Force
            (through the USACE) any questioned costs identified during this future review.

            Region 6 did not concur with Recommendation 3. Region 6 said they consulted
            with the OCFO and they feel confident the EPA would have enough funds to
            make the accounting corrections and reimburse the USACE for CWPPRA
            questioned costs. However, we do not have reasonable assurance that EPA would
            have funds to reimburse the Task Force without committing ADA violations. In
            addition, EPA has not completed the internal review for FY 2008, 2009 and the
            last quarter of FY 2014 to identify improper spending of CWPPRA funds. The
            amount of questioned costs that may result from the internal review is also
            uncertain.


15-P-0003                                                                                 27
            Region 6 concurred with Recommendation 4. WQPD management said they
            began the implementation of control activities for the management of CWPPRA
            funds and that they plan to complete this recommendation no later than
            March 2015.

            Region 6 did not concur with Recommendation 5. Region 6 said they are
            confident that no ADA violations occurred and that the OIG should delete this
            recommendation. As we stated above, the OIG does not have any reasonable
            assurance that ADA violations would not result from accounting corrections to fix
            appropriations law purpose violations and to return the funds to the Task Force.
            Further, employees responsible for committing appropriations law purpose
            violations are also subject to disciplinary actions as stated in EPA Directive 2520.
            While it is still uncertain whether ADA violations occurred, WQPD management
            committed appropriations law purpose violations.

            Region 6 concurred with Recommendation 6. Region 6 stated that the OCFO
            provided federal budget and appropriations law training in August 2014, and that
            the training included ADA violations and related implications. Region 6 planned
            to complete this recommendation no later than August 2014; however, not all
            management and staff working in the CWPPRA program have taken the training.

            We consider Recommendations 1, 3 and 5 unresolved pending receipt of
            responsive corrective actions and the dates corrective actions will be completed.
            We agree with the EPA’s corrective action for Recommendations 2 and 4 and
            consider the recommendations open with corrective action pending. We consider
            Recommendation 6 unresolved pending receipt of intended corrective action and a
            completion date for training all staff.

            Region 6 also provided corrections they suggested be made to the draft audit
            report. We included those suggested corrections, and how we addressed them, in
            Appendix D. Region 6 also provided an attachment with extensive technical
            comments, which was a copy of information given to us in March 2014 after the
            region reviewed our discussion document. We reviewed and evaluated those
            technical comments and made appropriate revisions in the draft report.

            Overall, Region 6’s explanations for the use of CWPPRA funds were not
            responsive; not supported with sufficient and appropriate evidence; not consistent
            with laws, policies, and agreements; and contradictory to official documentation
            and prior statements they made to the OIG. Since we considered those comments
            before issuing the draft report, we did not make any additional changes in the
            final report. Because of the number of pages in the attachment, we have not
            included them in this report. Instead, we included those comments as a separate
            attachment posted alongside the final report on the OIG’s website.




15-P-0003                                                                                    28
                                Status of Recommendations and
                                  Potential Monetary Benefits

                                                                                                                          POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                         BENEFITS (in $000s)

                                                                                                              Planned
    Rec.    Page                                                                                             Completion   Claimed    Agreed-To
    No.      No.                         Subject                          Status1      Action Official          Date      Amount      Amount

     1       26    Reimburse the Task Force (through the USACE)             U             Region 6           3/31/2016     $780.8
                   questioned costs of $780,793, unless Region 6                    Regional Administrator
                   WQPD management provides sufficient and
                   appropriate documentation to demonstrate that
                   questioned costs paid with CWPPRA funds were
                   incurred in accordance with CWPPRA,
                   appropriations laws and principles, and interagency
                   agreements.

     2       26    Direct the Region 6 ARA to work with the OCFO to         O             Region 6           3/31/2016
                   perform an internal review of the WQPD’s                         Regional Administrator
                   CWPPRA spending at the end of FY 2014 to
                   identify improper expenditures that occurred in
                   2008 and 2009, as well as from July 1, 2013,
                   through September 30, 2014. Reimburse the Task
                   Force (through the USACE) any questioned costs
                   identified during this review.

     3       27    Identify and address any ADA violations resulting        U             Region 6
                   from questioned costs identified in this report or               Regional Administrator
                   found by the Region 6 ARA’s review, and report
                   any violations in accordance with the ADA and
                   EPA Directive 2520.

     4       27    Direct the WQPD to establish control activities for      O             Region 6           3/31/2015
                   the CWPPRA program (e.g., verifications,                         Regional Administrator
                   comparisons and reconciliations of CWPPRA
                   spending with Task Force-approved CWPPRA
                   budgets) to ensure proper stewardship and
                   accounting of CWPPRA resources.

     5       27    Take administrative disciplinary actions, in             U             Region 6
                   accordance with EPA Directive 2520, against EPA                  Regional Administrator
                   employees responsible for purpose violations or
                   ADA violations related to improper CWPPRA
                   spending.

     6       27    Provide training to WQPD managers and staff who          U             Region 6
                   work on CWPPRA activities about what constitutes                 Regional Administrator
                   a purpose violation, including the potential for ADA
                   violations.




1   O = Recommendation is open with agreed-to corrective actions pending.
    C = Recommendation is closed with all agreed-to actions completed.
    U = Recommendation is unresolved with resolution efforts in progress.




15-P-0003                                                                                                                                   29
                                                                                 Appendix A

                 Details on Scope and Methodology
During our audit, we reviewed:

      Coastal Wetlands Planning, Protection and Restoration Act, Public Law 101-646,
       Title III, November 29, 1990.
      CWPPRA Project Standard Operating Procedures Manual, Revision 22, dated
       November 9, 2012.
      EPA, OCFO, EPA Directive 2520, U.S. EPA’s Administrative Control of Appropriated
       Funds, Release 3.2, February 4, 2008.
      EPA, OCFO, EPA Directive 2550 B, Travel Manual, November 14, 1995.
      EPA, OCFO, EPA Directive 2550C-04-P1, Procedure 1, Financial Management of
       Selected Administrative Areas Interagency Agreements, July 11, 2012.
      Memorandums of Agreement between the USACE, EPA and the LDNR.
      Interagency agreements between the USACE and EPA for active CWPPRA projects and
       for CWPPRA annual planning budgets.
      Interagency agreements between the EPA and the DOE for the ORISE interns.
      CWPPRA meeting minutes and planning meeting dates.
      Compass Data Warehouse, financial data and supporting documentation, including travel
       vouchers and budget spending details.
      The hotline complaint and supporting documentation we received from the complainant.

During our audit, we interviewed the WQPD Director, three other managers, 12 staff, and the
Deputy Regional Counsel. We also interviewed three USACE officials from the New Orleans
District office in Louisiana, who manage the CWPPRA program for their agency. We performed
spending analyses on the WQPD’s financial expenditures and data. We reviewed and compared
budget data from the Task Force, WQPD’s interagency agreements for CWPPRA, and WQPD’s
EPM budgets. We assessed the controls in place for travel and the monitoring of CWPPRA
funds. In addition, we compared purpose and destination data from travel vouchers to CWPPRA
purpose and planning meeting dates to determine validity of the travel. We also consulted with
our OIG Office of Counsel regarding legal issues related to the misuse of CWPPRA funds.

The time period covered by our audit was October 1, 2009, through June 30, 2013, and our
primary focus was on the use of CWPPRA planning funds. We performed work at the Region 6
office where our OIG office is co-located.




15-P-0003                                                                                   30
                                                                                        Appendix B

                                 CWPPRA Excerpts
   I.       CWPPRA Legislation
Excerpt from Public Law 101-646, November 29, 1990, Coastal Wetlands Planning, Protection
and Restoration Act, Title III, Sections 302, 303(a), 303(e), and 306.

Sec. 302. DEFINITIONS.
  As used in this title, the term--
         (1) "Secretary" means the Secretary of the Army;
         (2) "Administrator" means the Administrator of the Environmental Protection Agency;
         (3) "development activities" means any activity, including the discharge of dredged or fill
material, which results directly in a more than de minimus change in the hydrologic regime,
bottom contour, or the type, distribution or diversity of hydrophytic vegetation, or which impairs
the flow, reach, or circulation of surface water within wetlands or other waters;
         (4) "State" means the State of Louisiana;
         (5) "coastal State" means a State of the United States in, or bordering on, the Atlantic,
Pacific, or Arctic Ocean, the Gulf of Mexico, Long Island Sound, or one or more of the Great
Lakes; for the purposes of this title, the term also includes Puerto Rico, the Virgin Islands,
Guam, the Commonwealth of the Northern Mariana Islands, and the Trust Territories of the
Pacific Islands, and American Samoa;
         (6) "coastal wetlands restoration project" means any technically feasible activity to
create, restore, protect, or enhance coastal wetlands through sediment and freshwater diversion,
water management, or other measures that the Task Force finds will significantly contribute to
the long-term restoration or protection of the physical, chemical and biological integrity of
coastal wetlands in the State of Louisiana, and includes any such activity authorized under this
title or under any other provision of law, including, but not limited to, new projects, completion
or expansion of existing or on-going projects, individual phases, portions, or components of
projects and operation, maintenance and rehabilitation of completed projects; the primary
purpose of a "coastal wetlands restoration project" shall not be to provide navigation, irrigation
or flood control benefits;
         (7) "coastal wetlands conservation project" means--
          (A) the obtaining of a real property interest in coastal lands or waters, if the obtaining of
such interest is subject to terms and conditions that will ensure that the real property will be
administered for the long-term conservation of such lands and waters and the hydrology, water
quality and fish and wildlife dependent thereon; and
          (B) the restoration, management, or enhancement of coastal wetlands ecosystems if such
restoration, management, or enhancement is conducted on coastal lands and waters that are
administered for the long-term conservation of such lands and waters and the hydrology, water
quality and fish and wildlife dependent thereon;
         (8) "Governor" means the Governor of Louisiana;
         (9) "Task Force" means the Louisiana Coastal Wetlands Conservation and Restoration
Task Force which shall consist of the Secretary, who shall serve as chairman, the Administrator,
the Governor, the Secretary of the Interior, the Secretary of Agriculture and the Secretary of
Commerce; and


15-P-0003                                                                                           31
        (10) "Director" means the Director of the United States Fish and Wildlife Service.

SEC. 303. PRIORITY LOUISIANA COASTAL WETLANDS RESTORATION PROJECTS.
  (a) PRIORITY PROJECT LIST.--
         (1) PREPARATION OF LIST.--Within forty-five days after the date of enactment of this
title, the Secretary shall convene the Task Force to initiate a process to identify and prepare a list
of coastal wetlands restoration projects in Louisiana to provide for the long-term conservation of
such wetlands and dependent fish and wildlife populations in order of priority, based on the cost-
effectiveness of such projects in creating, restoring, protecting, or enhancing coastal wetlands,
taking into account the quality of such coastal wetlands, with due allowance for small-scale
projects necessary to demonstrate the use of new techniques or materials for coastal wetlands
restoration.
         (2) TASK FORCE PROCEDURES.--The Secretary shall convene meetings of the Task
Force as appropriate to ensure that the list is produced and transmitted annually to the Congress
as required by this subsection. If necessary to ensure transmittal of the list on a timely basis, the
Task Force shall produce the list by a majority vote of those Task Force members who are
present and voting; except that no coastal wetlands restoration project shall be placed on the list
without the concurrence of the lead Task Force member that the project is cost effective and
sound from an engineering perspective. Those projects which potentially impact navigation or
flood control on the lower Mississippi River System shall be constructed consistent with section
304 of this Act.
         (3) TRANSMITTAL OF LIST.--No later than one year after the date of enactment of this
title, the Secretary shall transmit to the Congress the list of priority coastal wetlands restoration
projects required by paragraph (1) of this subsection. Thereafter, the list shall be updated
annually by the Task Force members and transmitted by the Secretary to the Congress as part of
the President's annual budget submission. Annual transmittals of the list to the Congress shall
include a status report on each project and a statement from the Secretary of the Treasury
indicating the amounts available for expenditure to carry out this title.
         (4) LIST OF CONTENTS.--
                 (A) AREA IDENTIFICATION; PROJECT DESCRIPTION--The list of priority
         coastal wetlands restoration projects shall include, but not be limited to--
                   (i) identification, by map or other means, of the coastal area to be covered by the
         coastal wetlands restoration project; and
                   (ii) a detailed description of each proposed coastal wetlands restoration project
         including a justification for including such project on the list, the proposed activities to be
         carried out pursuant to each coastal wetlands restoration project, the benefits to be
         realized by such project, the identification of the lead Task Force member to undertake
         each proposed coastal wetlands restoration project and the responsibilities of each other
         participating Task Force member, an estimated timetable for the completion of each
         coastal wetlands restoration project, and the estimated cost of each project.
                 (B) PRE-PLAN.--Prior to the date on which the plan required by subsection (b) of
         this section becomes effective, such list shall include only those coastal wetlands
         restoration projects that can be substantially completed during a five-year period
         commencing on the date the project is placed on the list.




15-P-0003                                                                                            32
                 (C) Subsequent to the date on which the plan required by subsection (b) of this
        section becomes effective, such list shall include only those coastal wetlands restoration
        projects that have been identified in such plan.
        (5) FUNDING.--The Secretary shall, with the funds made available in accordance with
section 306 of this title, allocate funds among the members of the Task Force based on the need
for such funds and such other factors as the Task Force deems appropriate to carry out the
purposes of this subsection.
 (e) FUNDING OF WETLANDS RESTORATION PROJECTS.--The Secretary shall, with the
funds made available in accordance with this title, allocate such funds among the members of the
Task Force to carry out coastal wetlands restoration projects in accordance with the priorities set
forth in the list transmitted in accordance with this section. The Secretary shall not fund a coastal
wetlands restoration project unless that project is subject to such terms and conditions as
necessary to ensure that wetlands restored, enhanced or managed through that project will be
administered for the long-term conservation of such lands and waters and dependent fish and
wildlife populations.

SEC. 306. DISTRIBUTION OF APPROPRIATIONS.
 (a) PRIORITY PROJECT AND CONSERVATION PLANNING EXPENDITURES.--Of the
total amount appropriated during a given fiscal year to carry out this title, 70 percent, not to
exceed $70,000,000, shall be available, and shall remain available until expended, for the
purposes of making expenditures--
        (1) not to exceed the aggregate amount of $5,000,000 annually to assist the Task Force in
the preparation of the list required under this title and the plan required under this title, including
preparation of--
                 (A) preliminary assessments;
                 (B) general or site-specific inventories;
                 (C) reconnaissance, engineering or other studies;
                 (D) preliminary design work; and
                 (E) such other studies as may be necessary to identify and evaluate the feasibility
        of coastal wetlands restoration projects;
        (2) to carry out coastal wetlands restoration projects in accordance with the priorities set
forth on the list prepared under this title;
        (3) to carry out wetlands restoration projects in accordance with the priorities set forth in
the restoration plan prepared under this title;
        (4) to make grants not to exceed $2,500,000 annually or $10,000,000 in total, to assist the
agency designated by the State in development of the Coastal Wetlands Conservation Plan
pursuant to this title.




15-P-0003                                                                                           33
                                                                                                                                  Appendix C

                       EPA’s Portion of Task Force-Approved
                     CWPPRA Planning Budgets and Funds by Task
                            for FYs 2010 Through 201318
                                 TASK                                      Duration (FY10 dates)                          EPA
                        Task
     Task Category                           Description                   Start Date   End Date       FY10        FY11         FY12           FY13
                        No.
Prior Year PPL TASKS
           PL           19485 P&E holds 2 Public Meetings                   11/17/09    11/18/09   $     2,227 $     2,227 $      2,227 $          1,548
                              TC Recommendation for Project
           PL           19490 Selection and Funding                         12/02/09    12/02/09         2,284       2,284        2,284            2,952
                              TF Selection and Funding of the 19th
           PL           19600 PPL (1 meeting)                               01/21/10    01/21/10         3,051       3,051        3,051            4,632
                                                            FY Subtotal Prior Year PPL Tasks $           7,562 $     7,562 $      7,562 $           9,132
Current Year PPL TASKS
           PL           20200 Development and Nomination of Projects
                              Sponsoring agencies prepare fact sheets
                              (for projects and demos) and maps
                              prior to and following RPT nomination
           PL           20220 meetings.                               10/13/09          02/15/10        34,297      34,297       34,297            36,520
                              RPT's meet to formulate and combine
           PL           20230 projects.                                     01/26/10    01/28/10         6,679       6,679        6,679            8,928
                              Face-to-Face RPT Voting meeting (20
                              nominees and up to 6 demos) or
           PL           20240 Alternate for 2010                            02/17/10    02/17/10           478         478          478        -
           PL           20300 Ranking of Nominated Projects
                              Engr Work Group prepares preliminary
           PL           20320 fully funded cost ranges for nominees.        03/05/10    03/20/10         4,079       4,079        4,079            4,928
                              Environ/Engr Work Groups review
           PL           20330 Nominees                                      04/02/10    04/03/10         3,153       3,153        3,153            3,952
                              WGs develop and P&E distributes
           PL           20340 project Matrix                                04/01/10    04/01/10         2,834       2,834        2,834            3,520
                              TC selection of PPL 20 candidates (10)
           PL           20350 and demo candidates (up to 3)                 04/15/10    04/15/10         3,268       3,268        3,268            3,916
           PL           20400 Analysis of Candidates
                              Sponsoring agencies coordinate site
           PL           20410 visits for all projects                       05/01/10    07/15/10        31,899      31,899       31,899            35,244
                                Engr/Environ Work Group refine project
           PL           20420   features and determine boundaries           05/01/10    09/30/10         5,179       5,179        5,179            5,904
                                Sponsoring agencies develop project
                                information for WVA; develop designs
           PL           20430   and cost estimates (projects and            05/01/10    09/30/10        39,598      39,598       39,598            40,684
                                demos)
                                Environ/Engr Work Groups project
           PL           20440   wetland benefits (with WVA)                 05/01/10    09/30/10        16,947      16,947       16,947            18,464
                                Engr Work Group reviews/approves
                                Ph 1 and Ph 2 cost estimates from
                                sponsoring agencies, incl cost
           PL           20450   estimates for demos                         05/01/10    09/30/10         9,961       9,961        9,961            11,408
                                Prepare project information packages for
           PL           20480   P&E.                                        05/01/10    11/10/10         1,968       1,968        1,968            1,968
                                                         FY Subtotal Current Year PPL Tasks $          160,340 $   160,340 $    160,340 $      175,436



18
     Information provided by the USACE’s CWPPRA Senior Program Manager and the CWPPRA project administrator and accountant.

15-P-0003                                                                                                                                 34
Project and Program Management Tasks

        PM           20100 Program Management--Coordination             10/01/09   09/30/10    $   102,386 $   102,386 $    102,386 $     105,422

        PM           20110 Program Management--Correspondence           10/01/09   09/30/10        34,153          34,153   34,153            34,154
                           Prog Mgmt--Budget Development and
        PM           20120 Oversight                                    10/01/09   09/30/10        111,134     111,134      111,134       111,134
                           P&E Meetings (3 meetings preparation
        PM           20200 and attendance)                              10/01/09   09/30/10         9,458          9,458     9,458            11,616
                           Tech Com Mtngs (4 mtngs including
                           three public and one off-site; prep and
        PM           20210 attend)                                      10/01/09   09/30/10        10,445          10,445   10,445            12,352
                           Task Force Mtngs (4 mtngs, including
                           three public and one executive session;
        PM           20220 prep and attend)                             10/01/09   09/30/10        18,124          18,124   18,124            20,528

                             Agency Participation, Review 30%
        PM           20400 and 95% Design for Phase 1 Projects          10/01/09   09/30/10        12,758          12,758   12,758            14,784
                           Engineering & Environmental Work
                           Groups review Phase II funding of
                           approved Phase I projects (Needed
                           for adequate review of Phase I.)
                           [Assume 8 projects requesting Ph II
                           funding in FY09. Assume 3 will
                           require Eng or Env WG review; 2
        PM           20410 labor days for each.]                        10/01/09   09/30/10         3,937          3,937     3,937            3,937

        PM           20600 Miscellaneous Technical Support              10/01/09   09/30/10        35,000          35,000   35,000            35,000
                                                    FY Subtotal Project Management Tasks           337,395     337,395      337,395       348,927

                                                                      FY Total for PPL Tasks
                                                                                               $   505,297 $   505,297 $    505,297 $     533,495

SUPPLEMENTAL PLANNING AND EVALUATION TASKS

                           Workshop to review selected projects to
                           aid in transferring lessons learned from
                           design to implementation stage - FY10.
                           Prepare 2012 Evaluation Report (Report
       SPE           20700 to Congress) - FY12                          10/01/09   09/30/10         6,500      -             3,270        -
                                   FY10 Total Supplemental Planning & Evaluation Tasks              6,500      -             3,270        -
                                                              FY Agency Tasks Grand Total $        511,797 $   505,297 $    508,567 $     533,495

       Otrch         20200 Outreach – Agency                            10/01/09   09/30/10         6,600          6,600     6,600            6,600
                                                                          FY Total Outreach         6,600          6,600     6,600            6,600
                                                                             FY Grand Total $ 518,397 $ 511,897 $ 515,167 $ 540,095


Appendix C - Abbreviations

Engr     Engineering
Env      Environmental
P&E      Planning and evaluation
PL       Project list
PM       Project management
RPT      Regional planning team
SPE      Supplemental planning and evaluation
TC       Technical committee
TF       Task Force
WG       Work group
WVA      Wetland value assessment



15-P-0003                                                                                                                            35
                                                                                              Appendix D
                                       Agency Response
MEMORANDUM

SUBJECT:       Response to Office of Inspector General Draft “EPA Region 6 Mismanaged Coastal
               Wetlands Planning, Protection and Restoration Act Funds,” dated July 2, 2014

FROM :         Ron Curry /s/
               Regional Administrator

TO:            Arthur A. Elkins, Jr.
               Inspector General

Thank you for the opportunity to respond to the issues and recommendations in the Coastal Wetlands
Planning, Protection and Restoration Act draft audit report. I appreciate you bringing these issues to our
attention and the extensive work of your staff. This will help us correct mischarged expenditures and
design more efficient and effective future processes for Region 6 administration of the CWPPRA
program.

My staff has reached out to the Office of the Chief Financial Officer and the Office of Administration
and Resources Management - Office of Grants and Debarment to design CWPPRA processes that will
meet two goals you described in the “At a Glance” portion of the draft report:

           ensure resources are used efficiently and effectively and that public funds are used for the
            purpose for which they were appropriated and authorized
           establish contract activities to ensure proper stewardship and accounting of CWPPRA
            resources

With the national financial offices and Interagency Agreement Service Center staff, we are developing
high-level corrective actions that will ensure appropriate future use of funds. I also wanted to note that
OCFO Office of Budget already provided the financial training that you recommended.

GENERAL COMMENTS

Region 6 appreciates the mission of the Office of Inspector General to promote economy, efficiency,
effectiveness, and to prevent and detect fraud, waste, and abuse. Region 6 agrees with the OIG that
controls should be put in place to ensure proper stewardship and accounting of CWPPRA resources.
Region 6 has already implemented additional controls to include procedures for more accurate
CWPPRA payroll and travel charging, conducting periodic CWPPRA budget review meetings with the
Water Quality Protection Division’s management and the Comptroller’s office, and ensuring that the




15-P-0003                                                                                         36
project officer for the CWPPRA IA receives the necessary paperwork for cost comparison against bills to
confirm accuracy. The region has established control activities such as verification, comparison, and
reconciliation of CWPPRA funds to ensure proper stewardship and correct spending of CWPPRA
resources.

The OIG position is that the Water Quality Protection Division used CWPPRA funds to cover costs which
were not directly related to the CWPPRA program. Region 6 is confident that the vast majority of the
OIG questioned costs of $780,793 of CWPPRA funds were allowable direct costs needed to carry out our
approved task force activities, and were consistent with the CWPPRA statute, appropriations law and
principles, and the EPA’s interagency agreement guidance.

The Federal Accounting Standard Advisory Board Statement of Federal Financial Accounting Standard
No. 4, Managerial Cost Accounting Standards and Concepts (attached), identifies direct costs as costs that
directly support an activity and are specifically identified with an output. All direct costs should be
included in the full cost of outputs. Typical direct costs in the production of an output include:
1) salaries and other benefits for employees who work directly on the output; 2) materials and supplies
used in the work; 3) various costs associated with office space, equipment, facilities, and utilities that are
used exclusively to produce the output; and 4) costs of goods or services received from other segments or
entities that are used to produce the output. We provided extensive documentation in support of direct
costs in our March 3, 2014, response to the preliminary discussion document on the use of CWPPRA
funds (attached.)

In coordination with the OCFO, Region 6 will review the questioned costs in your draft report and
determine which costs were improperly charged to CWPPRA. If reimbursement is required for some
portion of the questioned costs, the OCFO has confirmed that sufficient Environmental Program
Management funds are available to cover any expenditures where CWPPRA was incorrectly charged.
Region 6’s preliminary review of the OIG’s questioned costs while preparing a response to the
preliminary discussion document identified less than $50,000 (rather than $780,793) that may have been
incorrectly charged to CWPPRA. Consistent with discussions we have had with OIG staff since the draft
report was issued, we have provided alternative wording for Recommendation #1 in the attached table.

CWPPRA is a unique program in that the monies received from the US Army Corps of Engineers are for
the purpose of performing work required of the EPA by the CWPPRA statute. The EPA does not perform
work or provide a service to the USACE, but rather works with other task force members on
implementing activities approved by the task force. In addition, as noted by the OIG on page 8, the
CWPPRA Task Force Project Standard Operating Procedures Manual, dated November 9, 2012, states
that the EPA is responsible for ensuring funds are spent in accordance with CWPPRA. Following this
logic, the USACE has never disputed any CWPPRA expenditures submitted by the EPA nor directed the
EPA in any way to change its spending practices.

We will work with the USACE and other task force members to clarify the procedures, processes, and
rationale for CWPPRA expenditures. This will include reviewing specific budget language in the Military
Interdepartmental Purchase Request, possibly amending current and prior IAs, or coming to an agreement
with the task force on the appropriate use of indirect costs (which the USACE charges to the EPA in other
cases). Region 6 will work with the OCFO, Office of General Counsel and OARM-OGD to re-evaluate
whether an indirect cost rate for the CWPPRA IA is appropriate.



15-P-0003                                                                                         37
Region 6 is confident that that no CWPPRA Anti-deficiency Act violations have occurred to date, and we
will take action to ensure that none occur in the future. In each year of the audit scope, the agency had
sufficient EPM funds to cover the questioned costs, and presently has sufficient EPM funds available to
correct the questioned expenditures, if needed. Therefore, we request that the OIG delete
Recommendations #3 and #5 in the final report.

The Region 6 Office of the Comptroller will work with the OCFO to review CWPPRA spending for fiscal
years 2008, 2009, and July 1, 2013, through September 30, 2014, to identify any further questionable
expenditures. As needed, Region 6 will correct all questionable costs.

CONTACT INFORMATION

If you have any questions regarding this response, please contact Mr. William Honker, Director of the
Region 6 Water Quality Protection Division, at (214) 665-3187, Mr. David Garcia, Deputy Director of the
Water Quality Protection Division, at (214) 665-7593, Mr. James McDonald, Senior Resource Officer, at
(214) 665-3150, or Ms. Regina Milbeck, Comptroller, at (214) 665-6540.

Attachments
1. Agency’s Response to Report Recommendations
2. Corrections to the Draft Audit Report
3. Excerpts from The Federal Accounting Standard Advisory Board (FASAB) Statement of Federal
    Financial Accounting Standard No. 4, Managerial Cost Accounting Standards and Concepts (SFFAS
    4)
4. Response to Document titled EPA Region 6 Mismanaged and Misspent Coastal Wetlands Planning,
    Protection and Restoration Act Funds w/appendices

cc: Mr. Patrick Gilbride
    Office of Inspector General, U.S. Environmental Protection Agency

    Mr. Randy Holthaus
    Region 6 Inspector General, U.S. Environmental Protection Agency

    Mr. James McDonald
    Region 6 Assistant Regional Administrator, U.S. Environmental Protection Agency




15-P-0003                                                                                     38
                                                                                        ATTACHMENT

                  AGENCY’S RESPONSE TO REPORT RECOMMENDATIONS

Agreements

                                                                                       Estimated
                                                         High-Level Intended
     No.               Recommendation                                                Completion by
                                                         Corrective Action(s)
                                                                                     Quarter and FY
            Direct the Region 6 Office of Regional    Region 6 WQPD and Office       March 2016
            Comptroller to perform an internal        of the Comptroller will
            review of the WQPD’s CWPPRA               work with OCFO staff to
            spending to identify questionable         review CWPPRA spending
            expenditures that occurred in 2008 and    for fiscal years 2008, 2009,
      2     2009, as well as July 1, 2013, through    and July 1, 2013, through
            September 30, 2014.                       September 30, 2014 to
                                                      identify questionable
                                                      expenditures. Based on this
                                                      review, questionable
                                                      charges will be corrected.
            Direct the WQPD to establish control      EPA will establish a more      March 2015
            activities for the CWPPRA program         comprehensive system of
            (e.g., verifications, comparisons and     internal controls to ensure
            reconciliations of CWPPRA spending        proper stewardship and
      4
            with Task Force-approved authorized       accounting of CWPPRA
            CWPPRA budgets) to ensure proper          resources.
            stewardship and accounting of
            CWPPRA resources.
            Provide training to WQPD managers         OCFO provided training on      August 2014
            and staff on what constitutes a purpose   federal budget,
      6     violation, including the potential for    appropriations law and
            ADA violations.                           ADA violations and the
                                                      implications.

Disagreements

                                                              Agency                   Proposed
     No.               Recommendation
                                                       Explanation/Response           Alternative
            Reimburse the USACE questioned         This Recommendation               March 2016
            costs of $780,793, unless Region 6     should be revised to read as
            WQPD management provides               follows: “Region 6 WQPD
            sufficient and appropriate             and Comptroller should
      1     documentation to demonstrate that      work with OCFO to review
            questioned costs paid with CWPPRA      the questioned costs
            funds were incurred in accordance with identified in this report and
            CWPPRA, appropriations laws and        determine what costs were
                                                   inappropriately charged to

15-P-0003                                                                                     39
            principles, and interagency              CWPPRA. Region 6 should
            agreements.                              then reimburse the
                                                     CWPPRA program for any
                                                     costs deemed inappropriate
                                                     as a result of this review.”
            Identify and address any ADA             Region 6 confirmed with
            violations resulting from questioned     OCFO that there are
            costs identified in this report or found sufficient EPM funds
            by the Region 6 Comptroller’s review, available for each FY to
            and report any violations in accordance correct the questioned
      3
            with the ADA and EPA Directive           expenditures in the draft
            2520.                                    report, if needed. Therefore,
                                                     this recommendation should
                                                     be deleted from the final
                                                     report.
            Take administrative disciplinary         This recommendation
            actions, in accordance with EPA          should be deleted from the
            Directive 2520, against EPA              final report, as no ADA
      5
            employees responsible for purpose        violations have been
            violations or ADA violations related to documented.
            improper CWPPRA spending.




15-P-0003                                                                            40
                                                                                           ATTACHMENT

                                  Corrections to the Draft Audit Report

Page 6, paragraph 1: The language implies that EPA Region 6 is receiving funding under the RESTORE
Act. The report should be clarified to state that to date neither EPA as an agency, nor Region 6
specifically, has received any funding under the RESTORE Act.


         OIG Comment: Language was added to footnote number 4 to include this
         clarification.


Page 14, paragraph 4: The language implies that EPA Region 6 receives funding under both the
RESTORE Act and the Water Resources Development Act (WRDA). The language should be clarified to
state that Region 6 has not received funding under either of these statutes.


         OIG Comment: Language was added to footnote number 11 to include this
         clarification.


Page 15, paragraph 2, Travel to Attend Training: The response seems to suggest that the EPA
participant was not involved in CWPPRA at the time, and that the Netherlands trip was not relevant to
EPA's CWPPRA work. This would be inaccurate. The traveler participated in Region 6 CWPPRA team
meetings regarding project selection and prioritization, and continues to review levees for consistency
with coastal restoration and protection (CWPPRA explicitly calls on EPA to fulfill this role). The auditor
was informed of the CWPPRA provision which calls for EPA to ensure such consistency. This
information appears to have been ignored. Below is a synopsis of the information provided to the auditor.
In addition to the information provided below, it should be noted that CWPPRA responsibilities are
detailed in the PARS measures and metrics for the subject EPA employee. Specifically, he is to "[s]upport
the Agency representative on the CWPPRA Task Force by advising on identification and selection of
restoration projects" and in developing Agency positions on "CWPPRA projects" and "levee protection
projects". The description of this travel should include reference to the statutory provision listed below, as
well as a discussion of its direct relevance to the participant's work in support of the Agency's CWPPRA
activities -- specifically project selection and review of proposed levee projects.

“The purpose of this trip was to learn about Dutch water management practices, particularly coastal
restoration and flood protection. The knowledge gained from this trip is directly relevant to EPA’s
CWPPRA mission. The Dutch are actively engaged in coastal restoration efforts which offer potentially
valuable lessons applicable to our CWPPRA coastal restoration work. For example, the Dutch are
exploring innovative, cost-effective ways to restore barrier islands and beaches. EPA Region 6 has
sponsored a number of CWPPRA barrier island projects and continues to strongly support this practice.
Knowledge gained from the Netherlands trip can help Region 6 and our CWPPRA partners develop more
efficient and effective barrier island projects. Pursuant to CWPPRA Section 303(d)(1), EPA has an
important role in helping ensure that flood control projects such as levees do not conflict with coastal
restoration. “CWPPRA Section 303(d)(1) CONSISTENCY.--(1) In implementing, maintaining,
modifying, or rehabilitating navigation, flood control or irrigation projects, other than emergency actions,

15-P-0003                                                                                         41
under other authorities, the Secretary, in consultation with the Director and the Administrator, shall ensure
that such actions are consistent with the purposes of the restoration plan submitted pursuant to this
section.” Participants in this trip also studied lessons learned from Dutch levees and other flood control
structures – particularly with respect to ecological impacts. Knowledge gained from this trip is directly
applicable to EPA’s CWPPRA responsibility to advise the Corps of Engineers on how to build levees in a
way that does not undermine or conflict with coastal restoration. EPA continues to be engaged in the
review of numerous levee projects in coastal Louisiana and the knowledge gained from the Netherlands
tour has been of great use in that regard. Indeed, EPA has used lessons learned from this trip to inform its
advice to the Corps on minimizing ecological impacts and ensuring consistency with coastal restoration
on numerous flood risk reduction projects."


      OIG Comment: We revised Chapter 2 to provide more details that support why we
      questioned this cost. Region 6 explanations about the purpose of this training were not
      sufficient and appropriate to support the expenses as authorized, approved and allowable
      CWPPRA expenses.

      The employee obtained competencies, knowledge and/or skills useful to the EPA’s water
      programs regarding coastal restoration and flood protection as reflected in the Region 6
      explanation above. The training did not relate directly to CWPPRA planning or project
      implementation and may indirectly benefit multiple EPA water programs. Further, the
      CWPPRA Task Force-approved budgets and allocated funds to EPA did not provide for
      training or international travel. However, Region 6 funded this trip and conference fees fully
      with CWPPRA planning funds.

      Section 302(6) of the CWPPRA states that the primary purpose of a CWPPRA coastal
      wetlands restoration project shall not be to provide navigation, irrigation or flood control
      benefits. Sections 307(a) and (b) provide additional authority and directs the USACE, not
      the EPA, to study the feasibility of modifying the operation of existing navigation and flood
      control projects to allow for an increase in the share of the Mississippi River flows and
      sediment sent down the Atchafalaya River for purposes of land building and wetlands
      nourishment. Section 303(d)(1) states that in implementing, maintaining, modifying, or
      rehabilitating navigation, flood control or irrigation projects, other than emergency actions,
      under other authorities, the USACE, in consultation with the U.S. Fish and Wildlife Service
      and the EPA, shall ensure that such actions are consistent with the purposes of the
      CWPPRA restoration plan or PPLs. This means that the USACE shall consult with the EPA
      and the U.S. Fish and Wildlife Service to make sure these projects are consistent with the
      CWPPRA’s PPL. The CWPPRA did not direct the EPA to plan navigation, irrigation or
      flood-protection projects.


Page 16, paragraph 2: The draft report erroneously states “In FY 2010, two managers used CWPPRA
funds to recruit an intern from DOE’s ORISE program.” In fact, the managers were invited and attended,
as EPA’s representatives to the USACE led CWPPRA Task Force, the change of command ceremony for
the New Orleans Corps of Engineers District Engineer, the CWPPRA chair. The managers also arranged a
meeting immediately prior to the ceremony with other attendees from Louisiana academic institutions to
discuss availability and interest of recent graduates in an ORISE fellowship, sponsored by EPA, to work
on CWPPRA activities.


15-P-0003                                                                                        42
        OIG Comment: We obtained the stated purpose of this trip from the official travel
        documentation provided by WQPD. Further, we discussed the purpose of this trip with
        a WQPD Associate Director who was one of the travelers. The Associate Director
        confirmed that this was a recruiting trip and that she funded this trip with CWPPRA
        funds because the intern would be assigned to the CWPPRA program. During the
        interview, the WQPD Associate Director did not provide additional information about
        the attendance at the USACE change-of-command ceremony.

        The explanation Region 6 provided above for this trip did not support how the trip was
        necessary to accomplish CWPPRA’s purpose. The Task Force did not approve or
        allocate CWPPRA funds to EPA for recruiting purposes. The EPA’s ORISE intern
        worked on other EPA water programs and was not dedicated full time to performing
        CWPPRA work. Further, EPA staff work with the USACE, both in New Orleans and in
        other locations, on multiple water-related programs. The region’s attendance at the
        USACE change-of-command ceremony was optional and did not relate directly or only
        to CWPPRA.


Page 16, paragraph 2: The draft report erroneously states “Also in FY 2010, the WQPD’s director
traveled to Washington, DC, using CWPPRA funds to attend a Senior Executive Service graduation
ceremony.” In fact, funding for the trip was split between EPM funding to attend the ceremony and
CWPPRA funding to brief OW and OCFO officials on CWPPRA funding and program issues. The
statement should either be deleted from the final report, or should be revised as follows – “Also in FY
2010, the WQPD’s Deputy Director traveled to Washington, DC, using CWPPRA funds to brief OW and
OCFO officials on CWPPRA funding and program issues and using EPM funds to attend a Senior
Executive Service Candidate Development Program graduation ceremony.”


         OIG Comment: We revised this statement in Chapter 2 to include information about
         the activity that was funded with CWPPRA funds. We also revised the fifth row of
         Table 5 in Chapter 2 to better describe the activity funded with CWPPRA money.


Page 22, paragraph 2: The last sentence erroneously states “In addition, the WQPD director stated that
for purposes of administrative expediency, they made spending decision based on the funds available,
without regard to the intended purpose of the funds.” The statement should be deleted from the final
report.

         OIG Comment: We revised the statement in the report to include this clarification.
         During a meeting with the WQPD Director in June 2014, he explained that he was
         referring to travel spending decisions only.




15-P-0003                                                                                     43
Pages 22 and 23: We believe that the interpretation of the conversation with the auditors and the PO is
not completely accurate as indicated in the attached email to her supervisor dated August 14, 2014. The
body of the email is listed below.

       “I don’t feel that the subject paragraphs are totally accurate. Below is what I was trying to relay to
       the auditors:

       There have been times where communication between 6WQPD management and myself, as the
       Project Officer was lacking, however, this has improved. 6WQPD management and I have worked
       together to develop controls on travel and other spending activities which has greatly improved the
       communication. But decisions have been made where I as the Project Officer, did not necessarily
       agree and where I had not been consulted before these decisions were made. However, I did not
       mean to imply that these transactions “had occurred and could not be corrected,” but that the
       decision was not mine to make. And at no time did I ever feel “pressured” to certify the billings to
       the USACE. In fact, I do not actually “certify” the billings. The main function of my review is to
       assign the appropriate MIPR for Cincinnati Finance Center to bill against.”


         OIG Comment: We revised the statement in Chapter 2 to include the project officer’s
         clarifications, and deleted language about her feeling pressured to certify billings.




15-P-0003                                                                                         44
                                                                              Appendix E

                                   Distribution
Office of the Administrator
Regional Administrator, Region 6
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
Assistant Administrator for Administration and Resources Management
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Deputy Chief Financial Officer
Principal Deputy Assistant Administrator, Office of Administration and Resources Management
Director, Office of Grants and Debarment, Office of Administration and Resources Management
Director, Grants and Interagency Agreements Management Division, Office of Grants and
       Debarment, Office of Administration and Resources Management
Director, Office of Policy and Resource Management, Office of Administration and
       Resources Management
Deputy Director, Office of Policy and Resource Management, Office of Administration and
       Resources Management
Deputy Regional Administrator, Region 6
Audit Follow-Up Coordinator, Office of Administration and Resources Management
Audit Follow-Up Coordinator, Office of Grants and Debarment, Office of Administration and
       Resources Management
Audit Follow-Up Coordinator, Region 6




15-P-0003                                                                                45
